<html>
<title> - PROJECT EXILE: A CASE STUDY IN SUCCESSFUL GUN LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





     PROJECT EXILE: A CASE STUDY IN SUCCESSFUL GUN LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 1999

                               __________

                           Serial No. 106-141

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-358                     WASHINGTON : 2000

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                Mason Alinger, Professional Staff Member
              Carson Nightwine, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 4, 1999.................................     1
Statement of:
    Gooch, Teresa, deputy chief of police, Richmond Bureau of 
      Police, accompanied by Sergeant Norris L. Evans, and 
      Officer Douglas P. Vilkoski, Richmond Bureau of Police; and 
      Susan Long, professor, codirector, Transactional Records 
      Access Clearinghouse, Syracuse University..................   109
    Heston, Charlton, president, National Rifle Association; Mark 
      Earley, attorney general, State of Virginia; and Helen 
      Fahey, U.S. attorney, Eastern District of Virginia.........     9
Letters, statements, et cetera, submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Chart entitled length of prison sentences 1998...........   162
        Information concerning BATF firearms prosecution 
          referrals drop.........................................   139
    Earley, Mark, attorney general, State of Virginia, prepared 
      statement of...............................................    19
    Fahey, Helen, U.S. attorney, Eastern District of Virginia, 
      prepared statement of......................................    26
    Gooch, Teresa, deputy chief of police, Richmond Bureau of 
      Police, prepared statement of..............................   113
    Heston, Charlton, president, National Rifle Association, 
      prepared statement of......................................    12
    Long, Susan, professor, codirector, Transactional Records 
      Access Clearinghouse, Syracuse University, prepared 
      statement of...............................................   120
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Followup questions and responses.........................   166
        Prepared statement of....................................     4
        Project Exile and Virginia Exile.........................   173

 
     PROJECT EXILE: A CASE STUDY IN SUCCESSFUL GUN LAW ENFORCEMENT

                              ----------                              


                       THURSDAY, NOVEMBER 4, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:45 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Hutchinson, Ose, Mink, 
Kucinich, Turner, Tierney, and Schakowsky.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Steve Dillingham, special counsel; Mason Alinger and 
Carson Nightwine, professional staff members; Lisa Wandler, 
clerk; Cherri Branson, minority counsel; and Jean Gosa, 
minority staff assistant.
    Mr. Mica. Good morning. I'd like to call this meeting of 
the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. I will start today's hearing by having 
opening statements from members of the committee. We have two 
panels this morning, and the topic of today's hearing is 
Project Exile: A Case Study in Successful Gun Law Enforcement. 
I will begin with an opening statement and will yield to other 
Members.
    Today's hearing before the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources will examine Project 
Exile, a gun law enforcement program initiated in Richmond, VA. 
This approach has been so successful, that it is now being 
replicated statewide as Virginia Exile, and also numerous 
cities across the Nation from Rochester, NY, to Denver, CO, are 
adopting programs modeled after Project Exile.
    Today's hearing will examine the elements and experiences 
of this successful crime-fighting initiative and consider some 
of the benefits of implementing Project Exile approaches to gun 
law enforcement on a broader basis.
    We will hear today from witnesses who I believe are very 
knowledgeable about the Richmond experience with Project Exile. 
At the time it began, Richmond was among the top five cities in 
the Nation with the highest per capita murder rates. In 1997, 
an assistant U.S. attorney with the support of his office began 
a coordinated effort with local police, State police and 
Federal investigators, including the FBI and the ATF, along 
with local and Federal prosecutors to respond to serious crime 
and gun violence. Project officials enlisted support from a 
coalition of businesses, civic organizations, community and 
church leaders.
    Since the project began, the results have been evident. 
More than 200 armed criminals were removed from Richmond 
streets during the first year of Project Exile alone. An entire 
gang responsible for multiple murders has been dismantled.
    In 1998, murders were 33 percent below 1997, the lowest 
number since 1987. In 1999, murders are down yet another 29 
percent. Today, we will hear that a key element of Project 
Exile has been, in fact, the ability to prosecute in Federal 
court cases that involve felons with guns, or drugs and guns, 
or domestic violence and guns.
    The advantage of Federal prosecutions include stiff bond 
rules and tough sentences, including minimum mandatory 
sentences. Another innovation of Project Exile has been its 
outreach and advertising effort. Much of the financial support 
for the media has come from the private sector contributions 
and donations. The media message in this program is quite 
simple: An illegal gun will get you 5 years in Federal prison. 
In Richmond, and now in other areas in the State, the message 
is conveyed by television, radio, and billboards.
    By all informed accounts, Project Exile has been successful 
and has saved lives. Virginia has now passed its own tough laws 
so that Federal prosecutions are often unnecessary. Project 
Exile has received bipartisan support and support from a wide 
range of groups seeking to protect our citizens, ranging from 
the National Rifle Association to Handgun Control, Inc.
    By learning as much as we can about Project Exile's 
success, we can assist our law enforcement officers, 
prosecutors and communities in replicating the project's 
successes.
    I am very pleased today that we have such a distinguished 
group testifying. I want to also divert a second from my 
prepared comments and say that we had planned this hearing for 
some time. It is unfortunate that we have had several 
horrendous incidents involving firearms, both in Hawaii, where 
our ranking member is from, and then yesterday in Seattle. This 
is most unfortunate.
    I had coffee this morning and picked up this Washington 
Post story of crimes in the District. This is Thursday, 
November 4, today. And it cites the homicides in the District 
of Columbia. Let me just read a couple of these:
    October 16th, ``unidentified person was found unconscious 
with multiple gunshot wounds to the head.'' That is the first 
one. Another one: ``An unidentified man was found unconscious 
in the street with gunshot wounds to the head.'' Another one on 
Morris Street, ``an unidentified person was found in the back 
seat of a car with multiple gunshot wounds to the body.'' I 
will skip to the Northwest section. ``An unidentified person 
was found with gunshot wounds to the chest.'' Then to the 
Southeast section, Sterling Avenue, ``an unidentified person 
was found on the sidewalk with gunshot wound to the leg.'' The 
victim was taken to D.C. General Hospital, where he was 
pronounced dead.
    All these are homicides. Another one on Langston Place, a 
24-year-old--and most of these are young males in the most 
productive period of their life--found in the street with 
gunshot wounds to the neck, shoulder and chest. On Yuma Street, 
an unidentified man was found in the street with a gunshot 
wound to the lower back. In the Southwest section of the city, 
on First Street, an unidentified man was found in a car with a 
gunshot wound to the head. That's just today's report from 
Washington.
    We do know that projects like Project Exile work where you 
have tough enforcement. Where is the chart that we had here? If 
we look at New York City, which has also had a zero tolerance 
under the leadership of Mayor Giuliani, we see murders down 
some 70 percent from over 2,000 to 600, just a little over 600, 
an incredible success story.
    So we need to find out what we need to do to make our 
streets safer, our communities safer. If it is projects like 
this, Project Exile, if it is increased mental health support, 
we need that. If it is tough enforcement and zero tolerance, I 
think the public and the Congress will demand that we take 
action.
    I am very pleased to highlight a successful program, one, 
again, that brings together diverse interests, some different 
ends of the spectrum relating to gun control, but all 
determined to make a difference.
    We are extremely pleased to have Mr. Charlton Heston, a 
recognized figure throughout the world, who is now helping to 
lead the effort to bring national attention to the success of 
Project Exile. We are also pleased to have the top prosecutor 
for the State of Virginia, Attorney General Mark Earley, a 
strong supporter of Project Exile, who is now working to 
institute Project Virginia Exile. Likewise we are honored to 
have the U.S. attorney from the Eastern District of Virginia, 
Ms. Helen Fahey, who supervises the office that began the 
project and has actively promoted its success.
    On our second panel, we are also fortunate to have a 
frontline law enforcement official from Richmond, Deputy Chief 
Teresa Gooch, who has seen the success of Project Exile 
firsthand. The deputy chief is devoted to continuing the 
project's success and in saving lives each and every day.
    Finally, we are honored to have a leading researcher on the 
topic of Federal gun law enforcement, Dr. Susan Long, and look 
forward to hearing about her research findings on this topic.
    I am very thankful that we have many talented law 
enforcement officials and career attorneys who day in and day 
out work to promote the safety of our citizens and families. It 
is my hope that we can help ensure that the Federal Government 
and State government and other agencies work together to do 
whatever is needed to help resolve the problems we have in this 
area.
    I intend to urge the Department of Justice to do much more 
in supporting this lifesaving initiative. There will be some 
questions we ask today, and one of the questions before us is 
why save lives only in Richmond? Why not do this in Washington, 
DC, our Nation's Capital? I just read the tragedy in this 
morning's paper. Why not across the Nation?
    I would like to thank all of our witnesses for appearing 
today, and I look forward to hearing from each you as we 
explore how we can repeat the success of Project Exile and 
protect our communities and our families throughout the land.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.001
    
    [GRAPHIC] [TIFF OMITTED] T6358.002
    
    Mr. Mica. I am pleased now to yield to our ranking member, 
the gentlewoman from Hawaii, Mrs. Mink.
    Mrs. Mink. I thank the chairman for yielding me time, and I 
certainly want to join with him in acknowledging the importance 
of today's hearings, and to extend my own welcome to the 
distinguished witnesses that have been invited to testify at 
these hearings.
    It is an important effort on the part of the oversight 
responsibilities of Congress to look at the various programs 
that have been put in place that are under the jurisdiction of 
the Federal Government, and Project Exile is certainly one of 
those programs that merits our attention.
    As the chairman said a few days ago, Hawaii was shocked by 
an incident that took the lives of seven people in an otherwise 
quiet, benign neighborhood in the offices of the Xerox Corp. 
And while this has been an incident that has never occurred in 
Hawaii ever before, what it illustrates is that it could happen 
anywhere. And so the whole subject of homicides and crimes of 
this nature are important considerations that all levels of 
government must pay attention to.
    The Congress has been wrestling with various legislation 
dealing with gun control, gun safety, and many of my 
constituents who write to me about the issue emphasize the 
importance of law enforcement. They are concerned that the 
control of guns are not going to eliminate criminals, we have 
to go against criminals. I mean, that is the little postcard 
that we get. So it is important that we look at it from their 
perspective. But it certainly does not diminish my interest and 
support for control legislation that still languishes in the 
Congress and has not come to a final enactment.
    Project Exile is a program that is designed to prosecute 
criminals that are apprehended in the commission of a crime 
with a gun. It was initiated in March 1997. As of 1998, 
September, the project was responsible for the conviction of 
over 200 people, and the seizure of over 400 guns. It is 
credited with a 33 percent decline in Richmond's homicide rate 
and a 30 percent decline in the armed robberies in that city.
    These are impressive numbers, and this oversight committee 
needs to explore the success of this achievement and examine 
the costs also to the Federal Government. Project Exile, after 
all, uses Federal law enforcement officers, Federal 
investigators, Federal prosecutors to process the crimes, and 
if convicted, the criminals go to a Federal prison.
    I am reminded by the words of Chief Justice Rehnquist, who, 
in his 1998 year-end report, cautioned against increased 
Federalization of crimes. Rehnquist admonished that the 
threshold criteria for Federal prosecution of essentially State 
offenses is something that we need to caution ourselves about. 
Clearly that threshold argument needs to be examined by this 
committee.
    Mr. Chairman, a recent Federal court opinion called Project 
Exile a substantial Federal incursion into a sovereign State's 
area of authority and responsibility. That is a matter which I 
believe is appropriate for this committee to consider in these 
deliberations.
    We are all interested in reducing crime in our communities, 
in our State and throughout the country, and so any innovation 
such as Project Exile, if it works and can be supported and 
substantiated, is a program that needs to be replicated in 
other areas of the country.
    So, Mr. Chairman, again, I thank you for holding these 
hearings and look forward to the testimony by these witnesses. 
Thank you.
    Mr. Mica. I thank the gentlewoman.
    Now I am pleased to introduce the vice chairman of our 
panel, the gentleman who has been very active in trying to call 
attention to Project Exile and really responsible some time ago 
for encouraging the subcommittee to take up this subject and 
the success of this project and also to call this hearing, the 
gentleman from Georgia Mr. Barr. You are recognized.
    Mr. Barr. Thank you, Mr. Chairman. I appreciate the 
distinguished panels that we have today, and the police 
officers that are with us today also, as an illustration of 
their support for this program. I know everybody in this room, 
not just those of us on this panel, wants to recognize the 
tremendous sacrifice that our men and women in blue make every 
single day, and we do appreciate it very much.
    Mr. Chairman, sometimes we drive ourselves crazy up here in 
Washington trying to be rocket scientists and come up with all 
sorts of newfangled ideas and unusual approaches to problems 
and plug all sorts of things into those vast computers that we 
have up here to try and solve problems, and sometimes we lose 
sight of the forest for the trees. Project Exile illustrates 
that you don't need to be a rocket scientist to solve the 
problem of crime in our communities, you just need to use good 
common sense and the tools that have been available to us to 
prosecute, and police officers and public officials, since we 
have existed as a Nation, and that is our laws, in this case 
the criminal code of this country, and in the case of Virginia, 
the Criminal Code of Virginia, and the manpower existing 
already in our Federal prosecutors' offices, our State 
prosecutors' offices, our local prosecutors' offices, and our 
police offices in our communities.
    You don't need to reinvent the wheel to solve the problem 
of crime in America, and that is an important message that 
Project Exile brings.
    One of the most interesting aspects, I think, Mr. Chairman, 
of Project Exile, in my review of the voluminous material that 
has been printed about it, is the fact that it brings together 
people with otherwise very differing views of some of the 
issues that consume our time here in Washington in support of a 
program that actually works. It helps our children, it helps 
our citizens. And I speak particularly of two agencies that are 
both very active in their own spheres of influence, the 
National Rifle Association, which has been very supportive of 
Project Exile and other projects across America to help law 
enforcement officers, and Handgun Control, Inc.
    The phenomenon of Ms. Fahey and Mr. Schiller in putting 
Project Exile into force, and Virginia Exile by Mr. Earley and 
the Governor, and bringing the NRA and Handgun Control in 
together in praising a program is something that is unrivaled 
in the annals of history, perhaps only by Mr. Heston's parting 
of the Red Sea, and it has been many years since that occurred. 
The bringing together of such otherwise disparate groups in 
praise of a program that really works is something that I think 
we all ought to take a moment to think about, to reflect on, 
and do what we can, as you are doing here today, Mr. Chairman, 
through this hearing, to try and encourage the Department of 
Justice to use this program all across America and to encourage 
States, insofar as we and Mr. Earley and Governor Gilmore can 
through their persuasive abilities, to use and institute 
Project Exile in communities all across America, because it 
does work.
    If you have a gun, you are going to do the time. As the 
sign in front of Ms. Fahey says, an illegal gun gets you 5 
years in Federal prison. That is a very simple message, but it 
is a profound one. It works because the men and women here 
today and Mr. Schiller and others who have been so active in 
this program recognize that each one of them as citizens can 
indeed have an impact if they just use the tools available to 
them.
    I think it is a phenomenon, Ms. Fahey, that this program 
works in the way that it does because you have marshalled and 
coordinated a comprehensive effort here in the community, and 
it goes beyond simply the law enforcement effort. You have 
brought into this effort the State authorities. You have 
brought into this effort, as your literature and other 
literature clearly illustrates, the private sector community, 
chambers of commerce, private organizations that have given not 
only of their time in support of the program, but their 
resources as well to publicize it, because we also know that no 
matter how good a project or a program is, if people don't know 
that it exists, its success is going to be severely limited.
    So it is a phenomenal project and program that we encourage 
the Department of Justice to pay more attention to, to use 
more, because it does work. I thank you, Mr. Chairman, for 
bringing together these distinguished panels and those of us 
here today in support of this effort to exercise oversight 
responsibility in a way that perhaps too infrequently we have 
the opportunity to do, and that is in praise of a government 
program. Thank you.
    Mr. Mica. Thank you, Mr. Barr.
    I now would like to recognize the gentleman from Texas Mr. 
Turner. You are recognized.
    Mr. Turner. Mr. Chairman, I want to thank you for holding 
this hearing. Anything that any State or local government can 
do to prosecute more vigorously those who have illegal firearms 
I certainly support. And I think that when we look at this 
issue, we need to all keep in mind that it is best approached 
in a bipartisan way. Efforts to strengthen our laws, to put 
more policemen on the streets, these are goals that we all hold 
irrespective of what party we may be in. I think it is a credit 
to the Chair today to hold this hearing on a program that is 
working, that does work, and that I hope that many other States 
will adopt. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Turner.
    Mr. Mica. I would like to recognize now the distinguished 
gentleman from Arkansas, our second U.S. attorney and member of 
the Judiciary Committee on our subcommittee panel, Mr. 
Hutchinson. You are recognized.
    Mr. Hutchinson. I thank the Chair and will just make a few 
comments because I am anxious to hear the testimony of these 
distinguished witnesses. I certainly agree that we in Congress 
should focus on things that do not work well in government to 
make sure we remedy problems, but we should also focus on those 
things that work well, to highlight those, and I see this as an 
opportunity today.
    I do believe that in other areas of the country, we could 
look to Virginia and Project Exile that has worked so well 
there, for guidance. But at the same time I was impressed by 
the testimony of U.S. Attorney Fahey who emphasized from the 
Department of Justice standpoint that each jurisdiction needs 
to determine what works best for them, and I think we do need 
to have that type of flexibility. So this is one example of 
something that works well that might work well in another part 
of the country. But as a former U.S. attorney in a small 
jurisdiction, I know there is a lot to cover, a lot to do, and 
I do hope that we can maintain that type of flexibility; that 
we can see what works best in every different area of the 
country and learn from each other to see how we can improve our 
prosecutions of violent crime.
    So with that, Mr. Chairman, I look forward to the testimony 
of the distinguished panel.
    Mr. Mica. I thank the gentleman, and now will go to our 
first panel. Our first panel, again, consists of Mr. Charlton 
Heston, president of the National Rifle Association; the 
Honorable Mark Earley, attorney general of the State of 
Virginia; and the Honorable Helen Fahey, the U.S. attorney for 
the Eastern District of Virginia.
    First, let me inform the panel and witnesses that this is 
an investigations and oversight subcommittee of Congress, and 
in just a moment I will swear you in. We do swear in all of our 
witnesses.
    Also, we try to ask you to limit your oral remarks to about 
5 minutes. Since there are only three, we will be somewhat 
liberal with the time. But if you have lengthy or additional 
statements or data that you would like to be made a part of the 
record, we will do that. That will be done by unanimous 
consent.
    At this time I would like to ask our witnesses if they 
could please stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses, the record will reflect, answered 
in the affirmative, and I would like to again welcome you. 
Thank you each again for your participation.
    We have a very distinguished first panel. The first witness 
really needs no introduction. As Mr. Barr said, we hope he can 
help us part the seas here and also lead us from exile and give 
us more information about his cooperative effort and support of 
Project Exile today.
    So Mr. Heston, welcome, and you are recognized, sir.

   STATEMENTS OF CHARLTON HESTON, PRESIDENT, NATIONAL RIFLE 
ASSOCIATION; MARK EARLEY, ATTORNEY GENERAL, STATE OF VIRGINIA; 
  AND HELEN FAHEY, U.S. ATTORNEY, EASTERN DISTRICT OF VIRGINIA

    Mr. Heston. Thank you, Mr. Chairman, ladies and gentlemen, 
the Honorable ladies and gentlemen. I must begin, just take a 
sentence, to clarify for the Honorable gentleman from Georgia, 
I have only limited control over that staff, you understand. To 
actually use it, I need instructions from a much higher body.
    But I am also, I must confess to you, a little bit tired 
this morning. I had an engagement in St. Louis which did not 
get me to Washington, to my surprise, until 1:15 a.m. But I 
will try to do my best for you.
    I would also like to limit--in the interest of compressing 
the hearing as appropriately as possible, I would like not to 
talk about the issues we disagree on. That is open knowledge. 
We know where we disagree. I would rather instead focus on what 
is not in dispute, indeed what is indisputable.
    There is no dispute that just 150 miles from here in sleepy 
Richmond, VA, they cut homicides by one-half in just 1 year. 
They employed the awesome simplicity of enforcing existing 
Federal gun laws. It's called, as you know, Project Exile. The 
word is out now on the streets of Richmond if you are a felon 
caught with a gun, you will go to jail for 5 years; no plea 
bargaining, no parole, 5 years.
    They are actually changing criminal behavior down there and 
saving lives. Now, that is not partisan. That is not 
conjecture, it's not hyperbole, that is a fact. Thanks to the 
fearless prosecutors whom the chairman has recognized, innocent 
Americans are alive today in Richmond that would have died at 
the hands of armed felons.
    But elsewhere across this land, innocent Americans alive 
today will be dead tomorrow or next month or next year because 
this administration, as a policy, is putting gun-toting felons 
on the streets in record numbers.
    Now, if you don't believe me or the NRA, believe the recent 
independent Syracuse University studies which revealed that 
Federal prosecutions of gun crimes have dropped by 44 percent 
during the Clinton-Gore administration.
    Right here in our Nation's Capital, there were some 2,400 
violent crimes committed with firearms last year. Guess how 
many of those were prosecuted? Two. Two out of 2,400 arrested.
    In fact, in little old Richmond there were more 
prosecutions under Federal gun laws in that one State--that one 
city than in California, New Jersey, New York, and Washington, 
DC, combined. I find that a staggering statement.
    Now, why does the President, I ask myself and I ask you, 
ask for more Federal gun laws if he is not going to enforce the 
ones we already have, which is 22,000? This deadly charade is 
killing people and will surely kill more. When political hot 
air is turning into cold blood, when duplicitous spin is 
becoming lethal, someone has got to speak up.
    Why does the President ask for more police if he will not 
prosecute their arrests?
    No lives will be saved talking about how many hours a 
waiting period should be, or how many rounds a magazine should 
hold, or how cheap a Saturday night special should be. But if 
you want to impact gun crime now, you must demand that Project 
Exile be implemented in major U.S. cities now.
    I wish you luck. A lot of luck. For a year we have 
challenged, urged and pleaded with the Clinton administration 
to take $50 million out of $14 billion budget and implement 
Project Exile's enforcement program nationwide. What was their 
response? A Justice Department spokesman told USA Today, and I 
quote, it's not the Federal Government's role to prosecute 
these gun cases. I think also of a session--Senator Sessions 
held a hearing last summer in which, in fact, someone from the 
administration, I do not know who, appeared and was asked this 
question: Why won't you prosecute? And I am not kidding, his 
answer was, well, we have come to the conclusion that if you 
incarcerate a felon for a crime, his place will simply be taken 
by another felon. I submit that is the most ridiculous 
statement I have ever heard offered in governmental discourse.
    Deputy Attorney General Eric Holder ridiculed Project Exile 
as a ``cookie cutter'' approach to fighting crime. Cookie 
cutting. He called it fundamentally wrong to earmark funds for 
enforcing Federal gun laws. ``Fundamentally'' wrong, he said.
    A senior official of the BATF tried to explain away the 44 
percent decrease in Federal prosecutions of gun crimes by 
saying, well, we seek to prosecute the few sharks at the top 
rather than the numerous guppies of the criminal enterprise. 
Mr. Chairman, those guppies with guns are murdering innocent 
Americans who are left defenseless by a White House and a 
Justice Department that lack either the time or the spine to 
enforce existing gun laws against violent criminals.
    We challenge Bill Clinton to direct Attorney General Janet 
Reno to call upon all of the district attorneys around this 
country and instruct them to take on just 10, just 10 more 
Federal gun cases each month. That is their job, after all. The 
result would be the prosecution of about 10,000, 10,000 more 
violent felons with guns, 10,000 potential murderers taken off 
the streets of America.
    And we urge this body to do what the White House won't, to 
appropriate $50 million to implement Project Exile in major 
cities across the country. And if the President calls that 
fundamentally wrong, ask him what you call it when the odds of 
doing time for armed crime are no worse than the flip of a 
coin. Thank you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Heston follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.003
    
    [GRAPHIC] [TIFF OMITTED] T6358.004
    
    [GRAPHIC] [TIFF OMITTED] T6358.005
    
    [GRAPHIC] [TIFF OMITTED] T6358.006
    
    Mr. Mica. We will withhold questions until we have heard 
from all of our witnesses.
    Our next witness is the Honorable Mark Earley, the attorney 
general from the State of Virginia, who has taken on advocacy 
of Project Exile, and I see from your biography you have a 
great interest in making this a success. I think you have six 
children; is that correct? That is a great concern for the 
future. Welcome, and you are recognized, sir.
    Mr. Earley. Thank you very much, Mr. Chairman and members 
of the committee. It is a pleasure to be here with you today. 
Again, my name is Mark Earley, and I am the attorney general 
for the Commonwealth of Virginia. For many years, it is hard to 
believe, the capital of Richmond was called the murder capital 
of the world. And it was because of that, as your chairman has 
noted, that of the major cities in the United States, we bore a 
very unhonorable distinction, and that was having an incredible 
member of murders per capita in our city. In fact, it peaked in 
1997 with 170 homicides.
    Under the leadership of Helen Fahey, the U.S. attorney for 
the Eastern District of Virginia, Project Exile was 
implemented, and the results have been dramatic.
    What is Project Exile? It is a partnership between Federal, 
State, and local law enforcement authorities to aggressively 
prosecute the illegal possession and use of guns by criminals. 
If you are a felon with a conviction, you will go to jail if 
you possess a gun. If you have been convicted of domestic abuse 
and you own a gun, you will go to jail. If you are a drug 
dealer with a gun, you will go to jail. And if you use drugs 
illegally, you will go to jail. These are Federal laws that 
have been passed that with their aggressive enforcement under 
Project Exile have had dramatic results. These call for 
mandatory prison sentences, and the average sentences are 56 
months, just shy of 5 years.
    Added to that stiff punishment is the fact that while 
awaiting trial, there is generally no bail. There is a 
presumption that you do not qualify for bail if you are 
arrested. And it is called Project Exile because if you are 
convicted in the city of Richmond under Project Exile for one 
of these crimes, you, in fact, are going to be exiled to a 
Federal prison far away from your community and your friends 
and where you are threatening the public.
    Has it worked? The answer is absolutely yes. From 1998, the 
homicide rate in Richmond dropped a precipitous 33 percent. And 
we are continuing to drive down the numbers this year.
    656 guns have been removed from the hands of criminals; 405 
individuals have been convicted, again with an average sentence 
of 56 months.
    Why has it worked? It is really very simple. We have 
separated the criminals from their guns. We have then separated 
the criminals from their community, and we are aggressively 
reminding people through a very strong social marketing 
campaign that an illegal gun gets you 5 years in prison.
    The sign that you see on our table here this morning is 
also a shrink wrap that exists on several major mass transit 
buses in Richmond. You will hear from Deputy Teresa Gooch a lot 
of incidents from the Richmond City Police where they are now 
arresting people for gun crimes and other crimes, and when they 
ask them if they have a gun, they say, ``Are you kidding? I 
don't carry a gun in Richmond anymore because of that Project 
Exile.'' They have gotten the message.
    What has been our role in the attorney general's office in 
the State of Virginia? Working with Helen Fahey and her staff, 
we have dedicated a full-time assistant attorney general to the 
U.S. attorney's office to prosecute these gun crimes, and it 
has been a remarkable partnership. We have two of our 
prosecutors, our assistant attorney generals, here with us this 
morning, Lisa McKeel and Richard Campbell, who have done an 
outstanding job working with the outstanding prosecutors in Ms. 
Fahey's office. We plan to continue that work program and 
working with them in the future.
    Also we have had tremendous support from the local 
Commonwealth's attorney. The Commonwealth's attorney for the 
city of Richmond, David Hicks, has dedicated a full-time local 
prosecutor to work with the U.S. attorney's office. His 
prosecutor and mine have been sworn in by the U.S. attorney's 
office to practice in their office.
    Our Governor recognized what all of you would recognize in 
a few short moments, and that is if this is working so well in 
the city of Richmond, why should it not be available to every 
county, city, and town in the State of Virginia, and for that 
matter throughout the United States?
    Working under that presumption the Governor introduced 
basically Virginia Exile, and it was passed by the legislature 
overwhelmingly at the beginning of this year. It was 
bipartisan, supported by Democrats, Republicans and 
Independents alike. And now in Virginia we have laws that 
mirror and in some cases are tougher than the Federal laws.
    Under Virginia Exile if you have a prior conviction for a 
violent felony, and you are convicted of possessing a firearm, 
you will go to jail for a mandatory 5 years. If you are 
convicted of possessing a firearm on school property with the 
intent to use it or display it in a threatening manner, you 
will go to jail for 5 years. And if you are convicted of 
possessing a firearm with illegal drugs, you are looking at no 
less than 5 years in prison.
    We have taken a page out of the Project Exile that Helen 
Fahey implemented in Richmond, and we have an aggressive social 
marketing program around the State. We now have signs on 
Interstates 64, 81 and 95 as you enter the State of Virginia 
advising everyone that an illegal gun in Virginia will get you 
a mandatory prison sentence. That is now the law in Virginia as 
of July 1, 1999.
    In short, Mr. Chairman and members of the committee, this 
kind of partnership with the Federal, State and local 
prosecutors and law enforcement authorities is having a 
dramatic effect, and it is having a dramatic effect for a very 
common-sense reason, and that is we are saying to the criminals 
that if you possess a gun in any sense illegally, you will go 
to jail. And I think the results are indisputable, and it 
provides a model not only for other U.S. attorneys' offices 
around the Nation, but certainly other attorney generals.
    I will be presenting next week here in Washington to the 
other attorney generals and all of the heads of their criminal 
divisions what we are doing in Virginia. The attorney general 
of South Carolina, Charlie Condon, and the attorney general of 
Texas, John Cornyn, are implementing similar programs as we 
speak in their States, and we hope that we can get the 
cooperation of attorney generals nationwide to work with their 
U.S. attorneys to implement the same kind of partnership. Thank 
you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Earley.
    [The prepared statement of Mr. Early follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.007
    
    [GRAPHIC] [TIFF OMITTED] T6358.008
    
    [GRAPHIC] [TIFF OMITTED] T6358.009
    
    [GRAPHIC] [TIFF OMITTED] T6358.010
    
    Mr. Mica. And I now would like to recognize the U.S. 
attorney for the Eastern District of Virginia, the Honorable 
Helen Fahey, who has helped lead Federal efforts in prosecuting 
and also in promoting Project Exile. First of all, welcome. You 
are recognized.
    Ms. Fahey. Good morning, Mr. Chairman, distinguished 
members of the committee. It is a pleasure for me to be here 
before this committee. It is also a pleasure for me to be here 
in the company of two former U.S. attorneys.
    I would like to, if it is acceptable to the committee, to 
deviate somewhat from my prepared statement in part because I 
don't want to repeat things that have already been said by both 
witnesses and also by members of the committee.
    Mr. Mica. Without objection, your entire statement then 
will be made part of the record. Proceed.
    Ms. Fahey. I would also like to ask that the entire 
statement of the Department of Justice be made part of the 
record.
    Mr. Mica. Without objection, so ordered.
    Ms. Fahey. Thank you.
    In 1997, when the U.S. attorney's office in the Eastern 
District of Virginia initiated Project Exile in Richmond, it 
was in response to a particular problem in a particular 
location. It was in response to the terrible homicide rate 
existing in Richmond at that time.
    I can assure each of you that when we started it, we had no 
idea what it would grow into and how it would be received 
across the country. We also really had no idea how extensive it 
would become even in Richmond.
    The goal of Project Exile was to reduce gun violence by 
changing the culture in Richmond using a comprehensive 
multidimensional strategy. The strategy included law 
enforcement and prosecution efforts as well as community 
outreach and education programs.
    Project Exile is simple and straightforward in its 
execution and requires relatively limited prosecution and law 
enforcement resources. The message of Project Exile, an illegal 
gun gets you 5 years in Federal prison, is clear, simple, and 
easy to understand. For gun-carrying criminals, the 
consequences have been swift, sure, and severe. For the 
citizens of Richmond, the results have been a safer community 
in which to live, work and raise a family.
    As Attorney General Mark Earley said, this has been a real 
partnership, a real cooperative effort. It has included all the 
Federal law enforcement agencies. It has included the police 
department in the city of Richmond, had has also included the 
State police. It has included the elected prosecutor, David 
Hicks in Richmond as well as the Federal prosecutors. It has 
involved members of the community, both the business community 
and the community at large. It has not been something that has 
just been a Federal program.
    I will not go through the numbers of prosecutions, except 
to say over 500 people have been indicted since the program 
began, and there have been almost 700 guns seized.
    One of the things that I really want to emphasize, because 
as we have gone along I have come to realize how important it 
has been to the success of the program, I spent 17 years as a 
local prosecutor prior to becoming the U.S. attorney. I was a 
prosecutor, and then I was the elected prosecutor in Arlington, 
VA. I think we all know the message that we believed that our 
enforcement and prosecution of individuals was sending out to 
the community. The goals of prosecution were such things as 
punishment, rehabilitation and deterrence.
    I think that we all felt, and maybe all of us in this 
business felt, that by prosecuting a certain individual for a 
certain crime, the message would get out to the community that 
it would not be a good idea for other individuals to commit 
those crimes. I think what Project Exile and what the media 
program part of Project Exile has done is gotten across to me 
and to many other people how important the message itself has 
been in creating the deterrence in the community and also in 
changing the culture of violence.
    One of the most important parts of it, I think, is to get 
the message out all over the city, the State, and the country 
that illegal possession of guns will no longer be tolerated. 
This has required in Richmond something that except perhaps in 
the drug area and also drunk driving has never been done in the 
law enforcement area, and that is to send out this clear 
message. It could not be sent out just by us in law enforcement 
for one reason: We did not have the money. But it required a 
coalition of business, community, and church leaders.
    Some of the business organizations were the Retail 
Merchants Association and the Chamber of Commerce. The 
coalition operating as Project Exile Citizen Support Foundation 
has funded a creative advertising program including TV and 
radio commercials; billboards; a city bus fully painted in 
black with the logo: An Illegal Guns Gets You 5 Years in 
Federal Prison; 15,000 business cards, which I notice 
Congressman Barr has one up there; and various print 
advertising.
    The outreach program has been hugely successful increasing 
citizen reports about guns and energizing the community to 
support police efforts.
    Through these efforts, hundreds of armed criminals have 
been removed from Richmond streets, violent gangs responsible 
for many murders have been destroyed, and the rate of gun-
carrying by criminals has been cut. Officers now report drug 
dealers throwing down weapons before running instead of taking 
the risk of being caught with the weapons. And a large number 
of homicides have been solved with information obtained from 
defendants in these cases.
    Most importantly, these efforts seem to be stemming the 
tide of violence. Homicides were down in 1998, 33 percent from 
1997. So far this year they are down an additional 29 percent. 
As a result, the citizens not only feel safer, but are safer. 
Because of the demonstrated results in Richmond, the U.S. 
attorney's office in the Eastern District of Virginia has 
expanded Project Exile to the Tidewater area of Virginia and is 
committed to continuing Project Exile as long as the need 
exists.
    In 1999, new legislation was passed in Virginia to make 
State laws more comparable to Federal laws on bond and gun 
offenses, and we look forward to working with Richmond's 
Commonwealth attorney as well as the other Commonwealth 
attorneys in Virginia to have appropriate gun cases prosecuted 
in the local courts as opposed to the Federal courts.
    Other cities have taken note of Project Exile's impact on 
the city of Richmond. The project model has been adopted in 
Rochester, Philadelphia, Oakland, Camden, Atlanta, New Orleans, 
Denver, the State of Texas, and other areas as well.
    Project Exile has proven that a comprehensive 
multidimensional strategy can work. With a little ingenuity it 
can be a very successful tool in accomplishing one of the 
President's priorities, reducing the gun violence on our 
streets.
    But I would hope that Project Exile will not be viewed just 
as a Federal program or a program requiring just Federal 
prosecution. It needs to be tailored to individual districts. I 
think what you are seeing in the State of Virginia is what we 
would expect to happen all over the country. We may start out 
with a program that is exclusively a Federal program. We may 
then end up with changes in State laws to increase the 
penalties, and then we may have a program, which is where we 
expect Virginia will be, which will be both Federal prosecution 
and State prosecution.
    But the message needs to be kept the same simple message 
that we have now, that an illegal gun will result in a 
substantial period of incarceration. Thank you.
    [The prepared statement of Ms. Fahey and the information 
referred to follow:]

[GRAPHIC] [TIFF OMITTED] T6358.011

[GRAPHIC] [TIFF OMITTED] T6358.012

[GRAPHIC] [TIFF OMITTED] T6358.013

[GRAPHIC] [TIFF OMITTED] T6358.014

[GRAPHIC] [TIFF OMITTED] T6358.015

[GRAPHIC] [TIFF OMITTED] T6358.016

[GRAPHIC] [TIFF OMITTED] T6358.017

[GRAPHIC] [TIFF OMITTED] T6358.018

[GRAPHIC] [TIFF OMITTED] T6358.019

[GRAPHIC] [TIFF OMITTED] T6358.020

[GRAPHIC] [TIFF OMITTED] T6358.021

[GRAPHIC] [TIFF OMITTED] T6358.022

[GRAPHIC] [TIFF OMITTED] T6358.023

[GRAPHIC] [TIFF OMITTED] T6358.024

[GRAPHIC] [TIFF OMITTED] T6358.025

[GRAPHIC] [TIFF OMITTED] T6358.026

[GRAPHIC] [TIFF OMITTED] T6358.027

[GRAPHIC] [TIFF OMITTED] T6358.028

[GRAPHIC] [TIFF OMITTED] T6358.029

[GRAPHIC] [TIFF OMITTED] T6358.030

[GRAPHIC] [TIFF OMITTED] T6358.031

[GRAPHIC] [TIFF OMITTED] T6358.032

[GRAPHIC] [TIFF OMITTED] T6358.033

[GRAPHIC] [TIFF OMITTED] T6358.034

[GRAPHIC] [TIFF OMITTED] T6358.035

[GRAPHIC] [TIFF OMITTED] T6358.036

[GRAPHIC] [TIFF OMITTED] T6358.037

[GRAPHIC] [TIFF OMITTED] T6358.038

[GRAPHIC] [TIFF OMITTED] T6358.039

[GRAPHIC] [TIFF OMITTED] T6358.040

[GRAPHIC] [TIFF OMITTED] T6358.041

[GRAPHIC] [TIFF OMITTED] T6358.042

[GRAPHIC] [TIFF OMITTED] T6358.043

[GRAPHIC] [TIFF OMITTED] T6358.044

[GRAPHIC] [TIFF OMITTED] T6358.045

[GRAPHIC] [TIFF OMITTED] T6358.046

[GRAPHIC] [TIFF OMITTED] T6358.047

[GRAPHIC] [TIFF OMITTED] T6358.048

[GRAPHIC] [TIFF OMITTED] T6358.049

[GRAPHIC] [TIFF OMITTED] T6358.050

[GRAPHIC] [TIFF OMITTED] T6358.051

[GRAPHIC] [TIFF OMITTED] T6358.052

[GRAPHIC] [TIFF OMITTED] T6358.053

[GRAPHIC] [TIFF OMITTED] T6358.054

[GRAPHIC] [TIFF OMITTED] T6358.055

[GRAPHIC] [TIFF OMITTED] T6358.056

[GRAPHIC] [TIFF OMITTED] T6358.057

[GRAPHIC] [TIFF OMITTED] T6358.058

[GRAPHIC] [TIFF OMITTED] T6358.059

[GRAPHIC] [TIFF OMITTED] T6358.060

[GRAPHIC] [TIFF OMITTED] T6358.061

[GRAPHIC] [TIFF OMITTED] T6358.062

[GRAPHIC] [TIFF OMITTED] T6358.063

[GRAPHIC] [TIFF OMITTED] T6358.064

[GRAPHIC] [TIFF OMITTED] T6358.065

[GRAPHIC] [TIFF OMITTED] T6358.066

[GRAPHIC] [TIFF OMITTED] T6358.067

[GRAPHIC] [TIFF OMITTED] T6358.068

[GRAPHIC] [TIFF OMITTED] T6358.069

[GRAPHIC] [TIFF OMITTED] T6358.070

[GRAPHIC] [TIFF OMITTED] T6358.071

[GRAPHIC] [TIFF OMITTED] T6358.072

[GRAPHIC] [TIFF OMITTED] T6358.073

[GRAPHIC] [TIFF OMITTED] T6358.074

[GRAPHIC] [TIFF OMITTED] T6358.075

[GRAPHIC] [TIFF OMITTED] T6358.076

[GRAPHIC] [TIFF OMITTED] T6358.077

    Mr. Mica. Thank you, and I thank each of our witnesses for 
their testimony. Let me start with a few questions for our 
panelists.
    Mr. Heston, you cited the fact that one city, Richmond, had 
more Federal gun enforcement prosecutions than the District of 
Columbia, California, and New Jersey?
    Mr. Heston. And the District combined.
    Mr. Mica. Combined?
    Mr. Heston. Not just more than each of those, but more than 
the sum total of those cities.
    Mr. Mica. So through this type of approach--and I think I 
had them blow up some of the information that was given to us. 
But this would coincide with your figures, prosecution of 
Federal gun laws. Two in the District.
    And Mr. Holder, you said, also has basically said that he 
has no interest in the program, and that he is the U.S. 
attorney or was the U.S. attorney in the District. Was he the 
U.S. attorney when he made that statement?
    Mr. Heston. Yes, he was.
    Mr. Mica. He was. OK.
    Attorney General, in the State of Virginia, was it you or 
the Federal agency, the U.S. attorney's office, that initiated 
the program?
    Mr. Earley. Project Exile was initiated in the U.S. 
attorney's office by Helen Fahey. When I became attorney 
general about 18 months ago, we met and talked, and Helen 
suggested a working relationship between our offices, and we 
were very open to that. We thought it was a great opportunity. 
And the way we worked on out was simply by detailing an 
assistant attorney general from our office to the U.S. 
attorney's office. They were sworn in as--I'm not sure what the 
correct terminology is, a special assistant, special U.S. 
attorney to help prosecute those.
    Mr. Mica. So you provided two personnel from your staff who 
were sworn in and worked with----
    Mr. Earley. Actually, we provided one, and the 
Commonwealth's attorney for the city of Richmond provided one, 
and we had two individuals serve in that capacity over the last 
12 months.
    Mr. Mica. So it was a Federal initiative and in cooperation 
with the State.
    Could you estimate, Ms. Fahey, how much in resources this 
costs the Eastern District? Can you put any price tag on this 
as far as the cost for the program?
    Ms. Fahey. I don't think I could put a price tag on it. I 
think that I could say from the point of view of attorney 
resources, that we would estimate approximately three attorney 
resources, which includes the attorney from the attorney 
general's office as well as the Richmond Commonwealth 
Attorney's office, and at least one full-time assistant U.S. 
attorney from my office as well, obviously, as support and 
management-type resources.
    Mr. Mica. The basic program, though, is being funded 
through existing resources? There is no additional Federal 
money coming in to support this, or State? Do you have an 
additional State appropriation, or is there a local 
contribution toward financing the project? Maybe you could 
answer, Attorney General.
    Mr. Earley. Mr. Chairman, from our perspective what we did 
is we went through--as you know, each State has an agency which 
basically is the funnel for Federal grant money, and we 
basically applied for a grant through the Department of 
Criminal Justice Services in Virginia for a full-time attorney, 
and so ours is being paid for by grant money. And if it were 
not--we would have done it anyway, but for our internal 
purposes it allowed us to keep our resources intact and fund 
this prosecutor through a grant from the State of Virginia, and 
it has been a very positive thing.
    I will also mention in terms of attorney resources, one of 
the things to consider is personnel and the number. The other 
thing is the time. And what you have to understand in most of 
these Project Exile cases is that these cases generally don't 
go to trial. Almost all of the defendants plead. You will 
generally have some preliminary motions, but after that, it is 
a relatively efficient method of conviction.
    Mr. Mica. Ms. Fahey, your organization has had no extra 
appropriation for this project, or have they, from Department 
of Justice? Or are you working out of existing budget?
    Ms. Fahey. We are working essentially out of existing 
resources a lot. Department of Justice did have attorneys 
detailed to our office at various times. But I would like to 
comment briefly because of some of the comments made about Eric 
Holder, who is both my colleague and my dear friend.
    He has been extremely supportive of Project Exile in 
Richmond from the very beginning. He attended numerous meetings 
with all of the Federal law enforcement agencies to get them to 
put more resources in Richmond to work on the problem. He has 
helped get additional training money for the police department 
in Richmond so that they would be able to better deal with 
these types of cases and also to generally upgrade their 
general capabilities.
    Mr. Mica. Do you know why he hasn't insisted on initiating 
a program in Washington, DC, which has been plagued by 
incredible violence----
    Ms. Fahey. Well, I certainly don't know----
    Mr. Mica [continuing]. And has the tightest gun control 
laws, I think, in the Nation? It is almost impossible to own--
--
    Mr. Heston. Hawaii has more.
    Ms. Fahey. I think when you look at those numbers, you need 
to keep in mind that the U.S. attorney in the District of 
Columbia controls both Federal prosecution and also local 
prosecution. So they----
    Mr. Mica. But it doesn't look like they have done either--
--
    Ms. Fahey. That is only Federal prosecutions----
    Mr. Mica [continuing]. From a Federal prosecutorial 
standpoint.
    Ms. Fahey [continuing]. That doesn't include the cases that 
would have been prosecuted in Superior Court in the District of 
Columbia, because that would be--they would be the cases that 
would be prosecuted as violations of the D.C. Law, not Federal 
laws.
    Mr. Mica. Well, the statistics I have, also from a chart 
that was given me on Federal prosecutions, show from 1993 
basically to the current time, each year there has been a 
decrease in Federal prosecutions. And this is from whose 
testimony? Ms. Long, who is in our second panel, we have both 
graphic chart and then numerical display showing from 12,000 in 
1992 criminal referrals, and that were prosecuted going from 
12,000 down to 5,600, every year just about declining, which 
concerns me.
    Finally, let me just turn to Mr. Heston for a last 
question.
    Mr. Heston. Thank you.
    Mr. Mica. Your organization, NRA, has been criticized 
because of their stance on some gun control legislation. We 
have a program here that is very successful, and I want to know 
what your organization, NRA, is doing to promote, encourage and 
foster a program that is as successful like this. Maybe you 
could comment.
    Mr. Heston. The NRA contributed early money to Project 
Exile and plans to continue to do so.
    I would also like to seize this chance to speak to Ms. 
Fahey, because obviously this is not on your plate, but you are 
in the Department of Justice. Do you detect any kind of 
movement from the administration about providing the $50 
million it will take to implement more extensively? We have 
heard silence, but no comment one way or the other.
    Mr. Mica. You might want to address the question to the 
Chair, and I could----
    Mr. Heston. I beg your pardon.
    Mr. Mica. Just for protocol. Would you like to respond?
    Ms. Fahey. I don't know specifically what the state of the 
budget is. The last thing I heard was that all of our budgets 
might be cut by 1 percent. I assume that that would mean that 
there would not be additional resources for any of us to 
prosecute gun cases. And one of the versions of the budget that 
I saw had a number of earmarks for some districts to prosecute 
additional gun cases, which might mean for a district like mine 
that I would actually lose resources.
    Mr. Mica. I believe that was 1 percent of the increase, 
proposed increases.
    But let me yield at this point to the gentlewoman from 
Hawaii, Mrs. Mink.
    Mrs. Mink. Thank you.
    The complete testimony which you have submitted, Ms. Fahey, 
has parts of it which really need to be looked at in this 
context of what we are discussing. There is an implication by 
the questions and statements that have been made thus far that 
the Federal Government has been less than enthusiastic in 
prosecuting the violent crimes committed with firearms. And the 
charts are pointed to as illustrative of the lessened 
commitment by the Federal Government. But as I read your 
testimony, it indicates that overall the country has 
experienced a very sharp decline in violent crimes committed 
with firearms. Is that correct?
    Ms. Fahey. That is correct. My understanding is that gun 
violence nationwide is down approximately 35 percent since 
1992.
    Mrs. Mink. So that the prosecutions would also be reduced 
by that percentage at the least if there are less crimes being 
committed during that period? Isn't that a correct assumption?
    Ms. Fahey. I think all of us would hope that the end result 
would be that there would be fewer violent criminals out there 
for us to prosecute.
    Mrs. Mink. The charts that the chairman just referred to, 
how would you comment on the figures, if they are true, that 
the Federal Government is not sharpening its emphasis on 
violent crimes with guns and whether the charts are correct in 
the inference that seems to be cast here that the Federal 
Government is lessening its interests in prosecutions?
    Ms. Fahey. Well, I am not sure which chart Congressman Barr 
has in front of him, and I don't think I could possibly see 
that far, but I would like to comment on one thing because I am 
not suggesting, and I don't think anyone would suggest, that 
the drop in homicides in the city of Richmond is totally 
attributable to Project Exile. It certainly is not. It is 
attributable to many factors: a lot of good work by the police 
department, a lot of work in the community. Many, many factors.
    I believe very strongly that Project Exile was a very 
significant factor in opening the door and allowing other 
things to go on in the city. But even in the city of Richmond, 
Project Exile was not the only thing that the U.S. attorney's 
office was doing to deal with the problem of violent crime.
    We have taken out dozens and dozens of violent drug dealers 
from the streets of the city of Richmond, people who were 
committing multiple homicides in Richmond. That is being done 
all over the country in every U.S. attorney's office. That was 
the priority of the President. It was a priority of the 
attorney general. The first thing that we were asked to look at 
when we became U.S. attorneys was what can we do to reduce 
violent crime in this country, and there is no one single 
thing. And that is true, even in the city of Richmond, even 
from a Federal perspective.
    Mrs. Mink. My assumption, when the Federal Government 
embarks, as you have done, on a unique program and tests out a 
particular theory, as your department has, on very, very strict 
enforcement of Federal laws that already exist, that this is 
done with the hope that it would stimulate throughout the 
country similar emphasis by other U.S. attorneys and in other 
collaborative efforts with local communities. If that is the 
case then, would you say that it was that type of approach that 
led to other communities like Philadelphia and others that have 
been mentioned here in embarking upon similar programs to 
connect Federal enforcement together with much stronger and 
greater local and State efforts?
    Ms. Fahey. I think that is absolutely true. We did not 
begin this as a program that we thought should be a national 
program. We started it in response to a particular problem.
    As it started to appear that the program was successful, 
and perhaps a good idea for other areas to adopt, I think we 
have seen that in other areas of the country.
    Mrs. Mink. So would you measure the success of Project 
Exile in the number of replications that you have in other 
districts by other U.S. attorneys, collaborating with other 
State attorney generals and trying to emphasize local 
enforcement rather than a takeover of law enforcement by the 
Federal Government?
    Ms. Fahey. I think every district has to look at its own 
particular problems, its own State's laws, its own local and 
Federal resources and determine what type of a program would 
work best in that jurisdiction.
    But I feel very strongly that there should be strict 
enforcement of gun laws, whether it is done federally or at the 
local offices, and there should be a very clear message sent 
out.
    Mrs. Mink. I have just one final question to Attorney 
General Earley. Do you feel, Mr. Earley, that based upon the 
new laws that have been enacted in Virginia that, according to 
your testimony, are now comparable to the Federal laws, that 
there will come a time when the State of Virginia will be able 
to take over this Project Exile and fully implement it as part 
of the governmental responsibilities of the State of Virginia?
    Mr. Earley. I hope it would always remain a partnership. I 
think that is what has been the very successful dynamic in the 
city of Richmond, and I think it is what will be the successful 
dynamic for the State.
    You know, the fact of the matter is that in America, we do 
have different levels of law enforcement and prosecution. We do 
have Federal laws and Federal prosecutors; we have State laws 
and State prosecutors. And we need to play to our strengths. We 
have some very tough Federal laws on criminals possessing guns. 
In many instances they are tougher than many State and local 
laws. And I think the beauty of Project Exile is if you can 
have the kind of leadership we had with Helen Fahey in Richmond 
in having the Federal prosecutors take the lead, it is an 
extraordinary catalyst in then forming a partnership with State 
and local prosecutors. There is no question that the Federal 
leadership on Project Exile in Richmond was a catalyst for 
change in State laws statewide in the Commonwealth of Virginia.
    What is happening now in the city of Richmond after only 3 
months of now having our new State Virginia Exile laws is that 
the Commonwealth's attorney for the city of Richmond, David 
Hicks, confers with the U.S. attorney and our prosecutors and 
their office about each particular gun case, and the question 
is asked: Who will prosecute this case? Oftentimes the criteria 
is based on where we think we can get the most severe sentence.
    Any kind of homicide rate in any city is a tragedy. And I 
think what we have been able to demonstrate in Richmond with 
this partnership--and Helen is right, it is not simply one 
thing, but I don't think you can underestimate the power of 
getting criminals who carry guns off the street. And if we can 
determine the most effective means of prosecuting those and 
getting them separated from the community for the longest time, 
we are going to all be better off, and I think the results in 
Richmond have showed that.
    Mrs. Mink. If the Federal laws on gun possession are so 
successful in reducing the felonies committed by these 
criminals, why would the State of Virginia not want to 
replicate the severity of the Federal laws in its own laws?
    Mr. Earley. We have. That is what the Virginia Exile 
program that was passed last year is.
    Mrs. Mink. It's comparable?
    Mr. Earley. It is similar. There are a few differences here 
and there, and in a few cases the prosecutorial efforts at the 
Federal level we think can be still more effective. This is 
called Project Exile because it gets criminals who carry guns 
out of the community. It gets them off the street very quickly. 
And one of the things that the Federal program will always have 
as an advantage is the ability to place people in prisons that 
are far away from their communities.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Barr [presiding]. I thank the gentlelady from Hawaii.
    Again, I want to thank--Mr. Heston?
    Mr. Heston. Thank you, Mr. Chairman. I just wanted to make 
one comment. While the NRA is very proud of our involvement in 
Project Exile in the Richmond and now in Georgia, last year we, 
with the vigorous help of Mayor Rendell and Senator Specter, 
managed to get the beginning of such a program in the city of 
Philadelphia, which also has a huge crime rate.
    I differ with Ms. Fahey in saying that passing gun laws 
will help solve crime. Passing gun laws is almost a complete 
failure. We have 22,000 gun laws on the books in the United 
States. The arrest rate is pretty good. The prosecution rate is 
practically zero.
    To give a significant example, in the past 2 years, 6,000 
young students, meaning not children but not adults, have been 
arrested for carrying firearms onto school campuses in almost 
every municipality. That is the law and properly that is a good 
law. Of those 6,000, over the last 2 years there have been 10 
prosecutions; 10 out of 6,000.
    The Federal Government must take in hand the problem of 
prosecuting arrested criminals. Simply the whole structure 
could fall apart on that simple problem.
    Mr. Barr. In other words, it isn't the passage of gun laws 
that stops crime; it is the enforcement of gun laws that stops 
crime.
    Mr. Heston. With all respect to the Honorable gentlewoman 
from Hawaii, Hawaii--and it is a marvelously effective 
example--has the most stringent gun control laws in America, 
very possibly in the world. You have to register ammunition for 
a gun in Hawaii. And the tragic incident the day before 
yesterday demonstrates that that does not help things. It is a 
nice placebo you can suck your thumb and say we have all of 
those gun laws, perhaps we should pass a couple more, that 
would do it. It will not do it.
    Prosecuting criminals, that is what made Mayor Giuliani's 
boast, his determination to reduce crime in the city of New 
York, that is how that worked, prosecuting criminals.
    Mr. Barr. We have a vote on, Mr. Heston. I know you have an 
engagement with another very distinguished American, former 
Secretary of Defense Weinberger, and we would excuse you. Thank 
you for your testimony today. It is an honor to have you here. 
I appreciate it very much.
    Mr. Heston. Thank you very much, Mr. Chairman, honorable 
ladies and gentlemen and fellow citizens.
    Mr. Barr. Thank you, Mr. Heston.
    Mr. Earley and Mrs. Fahey, would you all be able to wait so 
that I could go vote quickly and come back and reconvene?
    Ms. Fahey. I would be happy to.
    Mr. Barr. Thank you. We are in recess until we reconvene 
after that vote on the floor.
    [Recess.]
    Mr. Mica [presiding]. If we could have the two witnesses 
who are remaining from our first panel, Attorney General Mark 
Earley, and U.S. Attorney Helen Fahey, please return.
    I believe we were going to try to proceed during the vote, 
and unfortunately Monday some of us missed some votes through 
airplane mechanical problems, so we are all trying to keep our 
voting record as high as we can, but we do want to keep the 
hearing moving and proceed with the witnesses.
    I had some questions that I did not get to in my first 
round, and when Mr. Barr, our vice chairman, returns, we will 
yield to him and then any other Members as they return from 
votes on the floor.
    One of the questions that I wanted to ask in regard to 
Project Exile that you described, Mr. Attorney General, was 
that when you were transitioning from Project Exile to Project 
Virginia Exile, and you said that it was necessary to also have 
the State pass laws, I believe some of those were implemented 
in Virginia were passed in June of this past year.
    Could you tell us a little bit about the transition, and 
will we expect to see more State prosecutions as opposed to 
Federal prosecutions? What was the transition, and what are we 
going to see?
    Mr. Earley. Well, I think, first of all, it is important to 
understand the context that the Project Exile that came out of 
the U.S. attorney's office under Helen Fahey's leadership was 
targeted at the city of Richmond. We have a big State in 
Virginia. We have over 160 various jurisdictions. We have local 
prosecutors in each of those jurisdictions that are 
independently elected. And it obviously would be, I think, 
unreasonable to expect the U.S. attorney's office to prosecute 
gun crimes in every local jurisdiction throughout the United 
States.
    I think the kind of approach that needs to be taken is what 
happened in Richmond, and that is to target the major cities 
where you have a presence of a U.S. attorney's office and good 
resources and tackle where we have some of these really high 
out-of-control homicide rates where people are just carrying 
guns with criminal intent on a regular basis.
    But in Virginia, we said this is so effective at reducing 
the homicide rate, we want our prosecutors to be able to have 
this ability in every jurisdiction; whether it is the city of 
Virginia Beach, the city of Norfolk, the city of Roanoke, or 
the county of Fairfax, this ought to work everywhere, and we 
have prosecutors everywhere. So the idea was to take this tough 
ability to separate guns from criminals and to put criminals 
away for a very definitive long period of time that we thought 
we ought to be able to emulate around the Commonwealth of 
Virginia.
    So Virginia Exile was never envisioned as a way to replace 
the efforts of the U.S. attorney's office down in Project Exile 
in Richmond. I believe there is still going to be a strong need 
for that, and that is why we continue to have a strong 
partnership with them in those cities, but we want our citizens 
to have the protection and the benefit of that kind of law 
enforcement in every jurisdiction.
    Mr. Mica. My other question was for Ms. Fahey. You did 
undertake this project as an initiative within the U.S. 
attorney's office through existing resources, and obviously 
that was a subjective determination that was made by you in 
your department.
    Is it not possible for others to also institute through 
existing resources adoption of Project Exile and focus it on 
areas where you have a high incidence of crime and use of 
illegal weapons?
    Ms. Fahey. Well, as I am sure you know, the President gave 
a directive to the Justice Department which was given to all 
U.S. attorneys that each office was to develop a gun violence 
reduction initiative, and that is being finalized at the 
present time.
    Mr. Mica. When was that issued?
    Ms. Fahey. Excuse me?
    Mr. Mica. When was that issued?
    Ms. Fahey. Perhaps April of this year.
    Mr. Mica. And it still is not finalized?
    Ms. Fahey. Well, that does not mean that people are not 
doing things in their district. They are. They are finalizing 
the papers that have gone into the Justice Department. But they 
had a meeting within the last 2 days at the National Advocacy 
Center down in South Carolina of all of the gun enforcement 
coordinators from every U.S. attorney's office in the country 
to discuss the programs that every district has. So----
    Mr. Mica. I would like our staff to get a copy of the 
directive, and then maybe we could get an inventory of where we 
are, since that was April, and we are now approaching the end 
of the year, and maybe we can see where the Department of 
Justice is on this initiative.
    I did want to continue the hearing. Mr. Barr was about to 
start questions. I will recognize him and then we will go to 
Mr. Turner.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. I again want to commend 
your office and you personally, Ms. Fahey, and those who work 
under you, including Mr. David Schiller, who is one of the 
leading attorneys to begin Project Exile in your office for 
your work.
    I do wish we would see a little more support from main 
Justice and from the attorney general and deputy attorney 
general for this project. I think that the attorney general and 
the deputy could provide tremendous leadership in this instance 
and really help other jurisdictions.
    I think the deputy attorney general's choice of words was 
unfortunate, as has been alluded to earlier, and as he was 
quoted in New York Times of February 10th of this year, calling 
this a ``cookie-cutter'' approach, somewhat derogatorily. And 
another Justice official Kent Marcus last year in August was 
quoted in the Wall Street Journal as dismissing Project Exile 
as an assembly line prosecution.
    Now, while I certainly understand, being a former U.S. 
attorney myself, and as Mr. Hutchinson, also being a former 
U.S. attorney, indicated in his opening remarks, and as I know 
you understand, one of the great strengths of U.S. attorney's 
offices is that they have a great deal of flexibility in terms 
of prosecutorial discretion and how to use the resources in 
their offices, and that is something that has always been the 
strength of our U.S. attorneys system.
    But by the same token, if there are projects and programs 
that work, let's use them. Even a cookie cutter, if it produces 
good cookies, is something that is worthwhile. Even an assembly 
line, if it produces a good car, is worthwhile.
    I think back to my days as a U.S. attorney, one of the most 
successful anticrime programs in the history of our Department 
of Justice is the OCDETF program, the Organized Crime and Drug 
Enforcement Task Force approach, instituted in the early 1980's 
by President Reagan and continued by every President and every 
attorney general since then. OCDETF, very similar to Project 
Exile, except on a much broader scale because it was directed 
from main Justice, and U.S. attorneys across the country, 
including in the 13 core cities, were required to institute it 
and be a part of it, did, I think, exactly what Project Exile 
is supposed to do.
    I read from the Project Exile pamphlet that you all have 
put out, and it includes four basic aspects or basic components 
of Project Exile. And I will paraphrase here: Full coordination 
from the officer on the beat up to and including the Federal 
prosecutor. Full coordination with the State officials, the 
attorney general's office, and the Commonwealth's attorney's 
offices. Active coordination of all police agencies, a 
simplified reporting system, and, No. 4, coordinated use of 
innovative and aggressive policing methods.
    The common term in each one of those four components or 
aspects of Project Exile and why it works is the word 
``coordination.'' It does somewhat mystify me why some of your 
colleagues at main Justice seem to take umbrage and denigrate a 
coordinated approach to law enforcement. That is all Project 
Exile is at its core. It is simply a decision by the 
prosecuting authorities to better coordinate in a very 
conscious way the resources and the process of investigating 
and prosecuting certain types of crime, and it works.
    I really am mystified, particularly in a day when perhaps 
there is frequently far too much criticism of far too many 
programs, that we're going to the Department of Justice and 
saying, here is an approach that works. Please use it 
elsewhere. We will give you the money for it. We want you to do 
it. And what we get back is a high hat saying that is a cookie-
cutter approach or that is an assembly line approach, and we 
don't want to replicate it.
    I think, also, some of the arguments that there are not 
enough resources--and we will get into this a little bit more 
with the next panel--are a little bit disingenuous by people up 
here in Washington as well. Now, I know that we had some 
discussion during a previous question about a proposed 1 
percent cut and the increase in an agency's budgets. The fact 
of the matter is, though, there has been just over the past 5 
years a 50 percent increase in ATF's budget from $385 million 
to almost $600 million, and in the Justice budget as well. 
There has been over that same 5-year period from 1995 to 1999 
also a 50 percent increase in the budget.
    So I really don't think that arguments that there simply 
isn't enough money at main Justice to do these things really 
flies with the tremendous increases in budgets that have been 
afforded the Department of Justice and ATF and U.S. attorneys' 
offices.
    I would just implore you to use whatever influence you 
might have with the attorney general and with the deputy 
attorney general to, first of all, maybe just in a very kind 
way ask them to not use those sorts of terms in describing a 
project that works tremendously well, and urge them to direct 
more resources to U.S. attorneys' offices, particularly, as Mr. 
Earley has said, also in major cities where we obviously have 
problems of violent crime and the use of firearms so that there 
is simply a better coordinated approach all the way up and down 
the line and a better coordinated process.
    I mean, that is, again, at its core what Project Exile 
does. I cannot imagine that anybody--and if even you all 
disagree with it, certainly tell me--finding fault with an 
approach that simply says coordinate at all levels of 
prosecution and investigation, coordinate the reporting process 
and streamline it, and coordinate every aspect of these. It has 
worked in OCDETF with drug cases and worked with the organized 
strike crime forces going back to Attorney General Kennedy's 
days. It works with Project Exile.
    So for heaven's sake, please, whatever you all can do to 
urge the administration to use this program to direct other 
major city U.S. attorneys' offices to use it, would be deeply 
appreciated not just by those of us in Congress, but by the 
people in those cities such as the citizens of Richmond, who I 
know from hearing from many of them deeply appreciate the 
efforts of your two offices and the police department in 
Richmond.
    So thank you very much, and I do hope that you will assist 
us in that effort.
    Mr. Mica. I thank the gentleman from Georgia.
    I recognize the gentleman from Massachusetts Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I regret the fact 
that Mr. Heston apparently had to leave in our absence. I do 
that only because I think we caught Moses in a misstatement 
there. Before he left, he was going to present all the things 
we agreed upon and leave the things that we disagreed on, and 
then proceeded to do just the opposite. I had wanted to have 
the opportunity to share with him some of the administration's 
figures on fighting crime and prosecuting crime that he should 
be, and I suspect probably is, knowledgeable of.
    And I think there has been a good two-step process here 
where substantial Federal resources have been given to prevent 
the access to firearms by prohibited persons and to incarcerate 
violent gun offenders. And I think that has been successful. 
And we have also had these partnerships that we are talking 
about with the various State and local authorities.
    I am a little bit concerned about the Federalization of all 
crimes. I have always thought that a good deal of the law 
enforcement was particular to the States, and that their 
resources were properly put on that. I was interested to see a 
statement by John Justice, who is the President of the National 
District Attorneys Association, who essentially says just that, 
that about 90 percent of the crimes in the United States, 
including gun laws, are prosecuted by the 3,000 or so local 
prosecutors, and that is the way it should be; that the Federal 
Government has about 100 U.S. attorneys, and they are stretched 
pretty thin, and they can probably assist and help out on that, 
but it would seem appropriate--and I would like your comments 
on the idea of why are we turning this on its head and trying 
to push this toward the Federal Government when, in fact, it 
seems that it is appropriate for the States to undertake the 
prosecution of a majority of these crimes, and the States that 
have the laws, that they ought to toughen up their laws to have 
an illegal gun gets you 5 years in prison. They are certainly 
capable of doing that and then using their resources to 
prosecute that. Either one of you want to touch on that?
    Mr. Earley. I will be happy to go first. As with most 
things in life, this is not an either/or proposition. It is 
both/and.
    The fact of the matter is it was a policy decision on the 
part of the U.S. Congress to pass a number of these tough gun 
laws a long time ago. Most of these laws that are being 
prosecuted under Project Exile were passed by the Congress in 
the late 1960's.
    Mr. Tierney. I guess what I am saying, if you want to get 
tough on this and you like the law, apparently you want to 
enforce it and bang around on it, so what is holding back the 
States, many of whom have surpluses and a number of 
prosecutors, from going out there and passing these tough laws 
and prosecuting under State law?
    Mr. Earley. Well, we hope they will follow the lead of 
Governor Gilmore in the State of Virginia in passing similar 
kinds of laws and enforcing them.
    Mr. Tierney. That is not what I am hearing here. I am 
hearing that you want the Federal Government to step up and do 
the work for you.
    Mr. Earley. Well, with all due respect, I think it is a 
question of simply recognizing that everybody has a role in 
this. It doesn't make any sense to me for anyone to suggest 
that the Federal Government should not prosecute the laws it 
has passed. Nor does it make any sense to me for anyone to 
suggest that the States should not be aggressively involved in 
prosecuting their gun laws.
    Mr. Tierney. Let's not go there. Nobody made that 
statement. We certainly think the States should be aggressively 
enforcing their laws, and that is what I am talking about, that 
they should. They have far more in line of resources to do just 
that than the Federal Government apparently does with 100 or so 
U.S. attorneys that they have.
    So I do think it is a cooperative effort, but I am 
wondering where we are putting the emphasis on this and why the 
States are not stepping up and enforcing these types of laws 
and having some Federal assistance on this, but maybe doing 
more of it.
    The other side of that is that, you know, you look and do--
prosecute it on the Federal end, of course the people that are 
convicted end up in a Federal prison. And in Richmond, as one 
of the recent Federal District Court Judges recently noted, 
they end up in a Federal prison close to Richmond, leaving the 
State prisons so freed up that they are able to then rent space 
in them to the Federal Government. Again, everybody is tapping 
into the Federal resources there, and I wonder what we're doing 
here.
    Mr. Earley. Well, I think what we're doing is implementing 
what has also been true in the American prosecutorial system, 
and that is prosecuting the laws at every level. And I think 
that has been unique about Project Exile at the Federal level 
is there is, for whatever reason historically, a tremendous 
deterrent effect on the criminal element about the fact they 
could potentially be prosecuted under Federal law.
    Mr. Tierney. And you don't think there would be such a 
deterrent effect if you had a similar State law as you do in 
Virginia? You don't think that has the same effect?
    Mr. Earley. I would hope that it does, but I think 
historically you can't discount the ability of Federal 
prosecutions in certain major areas like organized crime, and 
significant drug conspiracies and drug dealing as well as 
violent gun crime to have a very potent effect.
    Mr. Tierney. But are we not to really concentrate our 
Federal resources on just that, the categories that you just 
spoke, and leave the other crimes, including your garden 
variety crimes with the possession of a handgun, to the States 
to prosecute and to imprison on that basis? I think that is a 
point well made, that you want to really use the best resources 
in combination, then you take the scarcer Federal resources for 
those purposes and concentrate them on the more egregious 
crimes, and then you have the prosecutors at the State level 
undertake the responsibility for the others.
    Mr. Earley. Well, at least I know in Richmond we consider 
the high homicide rate we had to be very egregious, and I think 
if you look at what concerns----
    Mr. Tierney. I understand that. That is exactly why the 
U.S. attorney's office went in in that particular instance. So 
if you are telling me that you want to have the Federal 
Government play a major role in those areas in this country 
where it is an egregious problem, it seems to be a different 
message than the one that I heard, which is that you wanted 
them to jump in and Federalize it across the board. But I think 
there would be more room for discussion on that.
    Mr. Earley. Well, you might have been out of the room. You 
didn't hear me say that. I think that the suggestion we have 
had on this panel unanimously is that these ought to be 
targeted in areas of the United States where you have a 
significant problem of gun homicides and homicides in general, 
which are going to be large major metropolitan areas. And 
Project Exile is very well suited to be prosecuted through the 
U.S. attorneys' offices in those areas, particularly with the 
cooperation and partnership like we have in Virginia with the 
State and local authorities.
    Ms. Fahey. I would just like to respond briefly. I don't 
think anyone, certainly not me, has suggested that all of these 
crimes be prosecuted federally or that these crimes be 
Federalized across the country. It would not be wise, and it is 
not feasible.
    When we started Project Exile in Richmond, it was a 
response to a tragic level of violence in the city. It was a 
feeling that something needed to be done, and perhaps we could 
use the Federal system effectively to deal with the problem or 
to make a difference.
    We could have spent a lot of time sitting around talking 
about what other people could or should do about the problem, 
but we decided as a group instead to decide what we could do 
about the problem in a cooperative manner and came up with what 
was initially exclusive Federal prosecution. But one of the 
things that the success of Project Exile did was to encourage 
the State to change the State laws so that they were more 
comparable to the Federal law so that more of these cases could 
be prosecuted in the State. And my understanding is that is 
taking place in other parts of the country as well. And the 
general message, which is vigorous enforcement of gun laws, 
whether it be State or Federal, gets across to the community 
and to the criminals.
    Mr. Tierney. Are you now finding that your office is 
shifting more of the prosecutions over to the State resources?
    Ms. Fahey. The law just went into effect July 1st, so we're 
just beginning that process, but we're going to do it in a 
cooperative manner. We are going to sit down and look at every 
single case and decide where it would be best prosecuted for a 
number of reasons.
    Mr. Tierney. What are the other reasons besides resource 
allocation?
    Ms. Fahey. There may be individuals that we think are 
linked to a drug gang that we want to keep in Federal court 
because we may want their cooperation for something; people who 
have been involved in other types of crimes which are Federal; 
people who have guns, but are also distributing large 
quantities of narcotics, those types of things.
    Mr. Tierney. So if I am following you, then you want to 
keep the really more egregious cases, the ones that might have 
been of multiple different offenses, some of them being heavily 
Federal-oriented, in your ball court, but shift over the larger 
gun-related crimes to the State prosecution where it would seem 
to be appropriate.
    Ms. Fahey. We expect eventually that someone convicted of 
domestic violence who is in possession of a gun can be 
prosecuted. My understanding is that is not yet possible under 
State law. So it will not also be a major drug dealer. It may 
be some other types of situations as well.
    But I think that we work together so well with all of our 
colleagues in law enforcement and in prosecution and in the 
attorney general's office that we will come up with the most 
effective way to handle these cases. And I don't think there 
has ever been a suggestion on the State's side that we should 
do these cases just so they don't have to pay for them. That 
has never been the State's goal. I think everyone looked at it 
as people are being murdered every day on the streets of the 
city of Richmond, and we all have an obligation to do what we 
can at a particular time, and that's what we did. I think we 
really have helped the city. We have helped the citizens of the 
city of Richmond. We have made their lives much better, and 
much safer. And that's very important to all of us.
    Mr. Tierney. I think you have done a good deed there. And I 
think that the States are perfectly capable of taking some of 
the initiative, particularly after seeing the example of what 
happened there under the leadership of the Federal involvement. 
But I am still not convinced that the Federal Government has to 
take the lead and be that involved in every situation; that the 
States cannot look at the model of what you have done and start 
to take some initiative on their own in different situations 
and allocate it down under the normal participatory rate 
between the Federal focusing on the more egregious crimes and 
the State focusing on others.
    Ms. Fahey. I think that has happened in places.
    Mr. Tierney. Thank you.
    Mr. Mica. I thank the gentleman.
    I now would like to recognize the gentlewoman from Illinois 
Mrs. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. And I thank the 
witnesses. I am concerned about which individuals have the 
discretion to divert cases from State to Federal courts. And I 
am looking at U.S. v. Jones, where the court itself expresses 
that it is concerned about the discretion afforded individuals 
who divert cases from State to Federal court for prosecution. 
Witnesses from the office of both the Commonwealth's attorney 
and the U.S. attorney were unable to detail the specific 
process by which this review and diversion occurs. A local 
police officer is apparently individually responsible for this 
task, and that does concern me.
    I wondered if you wanted to respond to that, if, in fact, 
it is individual police officers who ultimately have that 
discretion.
    Ms. Fahey. No, I don't think I would describe it that way. 
The individual police officer who makes the stop on the street, 
for example, is the one who begins the process. When he finds a 
gun, he calls the ATF to find out whether or not the 
circumstances of that particular case would qualify for Federal 
prosecution and whether there is sufficient evidence in that 
case.
    Ms. Schakowsky. Will that happen in every single case 
involving a gun?
    Ms. Fahey. Yes.
    Ms. Schakowsky. So they don't filter out.
    Ms. Fahey. No. No. I mean, it is being done in every case 
in part so that there will be no discrimination.
    Ms. Schakowsky. Why is it then that the court raised that 
concern and found that?
    Ms. Fahey. Well, I know that Judge Williams who wrote that 
opinion believes very strongly that these types of cases should 
be prosecuted in State court and not in Federal court for 
largely philosophical reasons. And so he has objected on a 
number of grounds to the project.
    Ms. Schakowsky. Well, one of the reasons I believe that was 
given is that 90 percent of the Project Exile defendants are 
African Americans, and the court noted that the inability to 
explain the procedure used, ``casts some doubt on the assertion 
that race plays no role in deciding whether a particular case 
is to be federally prosecuted.'' So that was the concern that--
--
    Ms. Fahey. Actually, there was no finding by the court that 
there was any evidence of discrimination, no finding whatsoever 
by the court; a lot of discussion, but no finding.
    But let me talk a little bit about the numbers because I 
think that creates a distortion. What is not mentioned in there 
is that almost somewhere between 85 and 90 percent of the 
homicide victims in the city of Richmond are African American. 
It is that particular segment of the society in Richmond that 
is being most victimized by the gun-carrying criminals.
    I have been a prosecutor for a long time. One of the 
complaints for many years was that law enforcement did not take 
crimes against minorities as seriously as it did crimes against 
whites. We have looked at the situation in Richmond. We have 
looked at who was being killed, and if you look at crime 
statistics, and they are not just in Richmond, they are all 
over the country, most homicides are committed within a 
particular race. Most murders, the vast majority of murders of 
African Americans are committed by African Americans. Most, the 
vast majority of murders of whites are committed by whites. 
There is not anywhere near as high an interracial aspect to 
that as many people think.
    Ms. Schakowsky. Could I interrupt you for 1 second then? 
Then why shouldn't Richmond jurors that also reflect that 
population be those that decide in those cases? In other words, 
they would also reflect the population of Richmond and might 
more accurately be jurors of peers of those individuals.
    Ms. Fahey. Well, we started the program because there was a 
rising homicide problem, and it was not getting better. It 
appeared to be related to criminals carrying guns, drug dealers 
with guns.
    The prosecutor's office in the city of Richmond, in part 
because of the overwhelming level of crime in the city, did not 
have the resources to give the attention to these types of 
crimes as they needed to have to have them effectively 
prosecuted.
    If you take an office like in the city of Richmond that has 
a total of 30 prosecutors, and you have 110, 130, 160 homicides 
a year, plus rapes, plus armed robberies, plus burglaries, they 
do not have the resources to put on these types of what you 
might call status cases.
    Ms. Schakowsky. Let me express my concern here. The jury 
pool for Richmond itself is about 75 percent African American. 
The jury pool for the Richmond Division of the Eastern Division 
of Virginia is drawn from a broader geographical area and is, 
in contrast, about 10 percent African American. If you are 
saying that 90, 85 or 90 percent of the cases involve African 
Americans, it would seem to me that if we are trying to 
establish a jury of peers, that it might be fairer. And it does 
concern me that we are talking about this concentration of one 
racial group in terms of those that are brought to Federal 
court.
    Ms. Fahey. First of all, the jury composition in Richmond 
had absolutely nothing to do with where these cases were 
prosecuted, absolutely nothing.
    The police chief in the city of Richmond is African 
American. The elected prosecutor in the city of Richmond is 
African American. Both of them have been heavily involved and 
totally supportive of this program.
    I don't think if we look at the country nationwide that 
there is any way that we could say that any U.S. attorney's 
office should not prosecute a case if their jury pool would be 
different from the jury pool in one of the cities in which they 
were prosecuting cases. It would just be an absolute 
impossibility.
    In addition to that, the vast majority of these people 
plead guilty. They are not jury trials.
    Ms. Schakowsky. Thank you.
    Mr. Mica. I thank the gentlewoman.
    Do any of the other Members have any additional questions?
    Mrs. Mink. Yes, I have a question.
    Mr. Mica. Mrs. Mink.
    Mrs. Mink. There has been comments made and questions asked 
about the lackadaisical attitude of the Department of Justice 
and the leadership of the Department with respect to coming to 
grips with their responsibility to take the lead on matters 
affecting crimes using a gun or firearms. I wanted to just note 
that staff has given me a report issued by the U.S. Department 
of Justice called Promising Strategies to Reduce Gun Violence. 
I wanted to ask Ms. Fahey if she was familiar with this report 
or contributed to it or----
    Ms. Fahey. I am. I am not familiar in detail with all of 
the things that are in it.
    Mrs. Mink. But you are familiar with the report?
    Ms. Fahey. Yes, I am.
    Mrs. Mink. It was issued in February 1999. And do you think 
it accurately describes the overall efforts being made to 
reduce gun violence, and that it illustrates the importance 
that the Department of Justice gives to this whole question of 
Federal, State, and local responsibility to do something about 
guns in their communities?
    Ms. Fahey. Well, I think that that particular publication 
outlines all of the programs that had been initiated probably 
prior to the last year, year and a half, and since then, 
additional programs aimed at reducing gun violence have been 
initiated in U.S. attorney's offices throughout the country.
    Mrs. Mink. Now, in the early pages of this report, profile 
No. 2, it discusses at great length the Boston strategy to 
prevent gun violence. Are you familiar with the Boston 
situation?
    Ms. Fahey. To some extent.
    Mrs. Mink. It apparently precedes that of Richmond.
    Ms. Fahey. I am to some extent, yes.
    Mrs. Mink. Do you think that program has been effective, 
and to what extent did the Federal Government become involved 
in the initiation and prosecution of that project?
    Ms. Fahey. I don't know when the Federal Government became 
involved in it. I know that it was a major effort for various 
segments of the law enforcement community and society and 
various agencies in Boston.
    Mrs. Mink. Throughout this report, there is indication that 
the administration has been well into urging and promoting 
promising strategies to reduce gun violence, and many of the 
reports deal with projects that began in 1992 and carried on 
until the present time.
    So, Mr. Chairman, in view of the fact that there has been 
so much criticism about the administration's lack of interest 
in prosecuting the matter of gun violence, I ask unanimous 
consent that this report be placed into the record at this 
point.
    Mr. Mica. Without objection, the report will be cited in 
the record.
    Mrs. Mink. Thank you.
    Mr. Mica. Well, I want to take this opportunity to thank 
both of the remaining two panelists, the attorney general and 
the U.S. attorney from the Eastern District of Virginia, and to 
express my appreciation for your coming forward, for your 
leadership on this project.
    We hope that it can be replicated not only throughout 
Virginia, but throughout the United States. We are all looking 
for successful answers and solutions to the problem that we 
have with gun violence and stopping crime and other problems 
that we have had in our streets, in our communities, our 
schools and neighborhoods.
    So we will again say thank you and excuse you at this time.
    Mr. Earley. Thank you, Mr. Chairman.
    Mr. Mica. I would like to call our second panel this 
morning.
    The second panel consists of two witnesses, Ms. Teresa 
Gooch, who is the deputy chief of police for the Richmond 
Bureau of Police. The second witness is Professor Susan Long, 
and Professor Long is codirector of the Transactional Records 
Access Clearinghouse with Syracuse University, and I believe 
her study was referred to in this first panel.
    I want to welcome both of our witnesses and again remind 
you that this is an investigations and oversight subcommittee 
of the House of Representatives. We do swear in our witnesses, 
and you will be under oath when you testify. And we also will 
ask to you limit your remarks to 5 minutes and request that any 
lengthy statements or documents be submitted for the record 
through unanimous consent.
    You are standing. Would you please raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses have answered in the affirmative, 
and we are pleased to have you both with us today. We have 
heard a little bit about how Project Exile was instituted in 
and for Richmond, and we are pleased to recognize at this time 
Teresa Gooch, who is the deputy chief of police with the 
Richmond Bureau of Police. I am sure you will be able to 
provide us with more information and background relating to 
your success story. Welcome, and you are recognized.

 STATEMENTS OF TERESA GOOCH, DEPUTY CHIEF OF POLICE, RICHMOND 
BUREAU OF POLICE, ACCOMPANIED BY SERGEANT NORRIS L. EVANS, AND 
  OFFICER DOUGLAS P. VILKOSKI, RICHMOND BUREAU OF POLICE; AND 
SUSAN LONG, PROFESSOR, CODIRECTOR, TRANSACTIONAL RECORDS ACCESS 
               CLEARINGHOUSE, SYRACUSE UNIVERSITY

    Chief Gooch. Thank you, Mr. Chairman and members of the 
committee. I would like to take a brief moment to introduce you 
also to two officers that have accompanied me here, Sergeant 
Norris L. Evans and Officer Douglas Vilkoski. Both are members 
of the police department and have been and continue to be 
involved in Project Exile cases.
    Mr. Mica. We would like to welcome your colleagues and 
thank you for recognizing them.
    Chief Gooch. And thank you for this opportunity to speak 
before you today.
    Project Exile is a product of a desire to explore creative 
alternative strategies to address the difficult urban problems 
of gun, drugs and violent crime. The program was developed in 
late 1996 from a successful partnership between the Richmond 
Police Department and the U.S. attorney for the Eastern 
District of Virginia. Together with Helen Fahey, the U.S. 
attorney for the Eastern District, and the Richmond Police 
Department, we joined forces to devise a plan to prevent 
Richmond from experiencing another 1994. Five years ago, a 
record 160 persons were murdered, and 3,500 violent crimes were 
reported in a city of just more than 200,000 people.
    Richmond followed the nationwide trend in that its crime 
problem stemmed from illegal drug trafficking, particularly 
crack cocaine, and the violent competitive behavior associated 
with illegal drug sales. Guns and drugs were commonplace in 
many of our neighborhoods and on our street corners, and 
Richmond was gaining a reputation of having a very high carry 
rate for guns.
    Thank to the tireless efforts and dedication of James B. 
Comey, deputy assistant U.S. attorney for the Richmond area, 
and David Schiller, assistant U.S. attorney and chief Federal 
prosecutor for Project Exile, a program was created to 
aggressively target and prosecute firearm-toting criminals in 
the city of Richmond.
    From Project Exile's inception, the Bureau of Alcohol, 
Tobacco and Firearms was brought on board as a sponsoring 
Federal agency. It became the third member of our team. Agents 
from the local office are assigned as part of Project Exile 
task force to aid our officers in their investigations and to 
adopt cases that meet certain criteria for prosecution within 
the Federal courts system under 18 U.S.C. 922 and 924.
    As outlined in earlier testimony from the Honorable Mark 
Earley and attorney Helen Fahey, there are eight basic criteria 
that they had to meet in order to meet the standard for the 
prosecution. A typical Project Exile case in the city of 
Richmond would involve an officer who might be assigned to a 
precinct beat car or to any other uniformed or plain clothes 
unit of their agency encountering or arresting an individual 
who has used or is in the possession of a firearm. If during 
the course of the investigation of that incident it is learned 
that the person meets any of the previously listed criteria, 
the case is referred to the Project Exile Task Force for review 
and possible adoption. State charges may or may not be placed 
against the person at that time, depending upon the 
circumstances of the encounter.
    So this new--the prosecutorial strategy offered three 
distinct advantages for us. No. 1 was stiffer sentencing 
guidelines for those using firearms in the commission of drug 
offenses or crimes of violence. No. 2 was a no bail provision 
prior to an offender's first court appearance, and the 
likelihood of serving a number of years in a prison far from 
home and associates. So in effect they would be exiled from the 
Richmond community.
    So other agencies soon joined our efforts. The Honorable 
Mark Earley, who testified earlier, assigned members of his 
staff to provide assistance. Our local Commonwealth attorney, 
David Hicks, assigned another prosecutor to the U.S. attorney's 
office. Other law enforcement agencies that participate include 
Virginia State Police and the FBI.
    The Project Exile Task Force has now staffed with Federal, 
State and local law enforcement officers along with Federal and 
State prosecutors, and the Richmond Police Department has 
assigned three officers to help facilitate the prosecution of 
these cases.
    We also have staff that track each case and research all 
firearms seized by the Richmond Police Department. And we are 
assisted in our efforts by, of course, the alcohol, tobacco and 
firearms agency.
    As has already been mentioned in 1997, when the initiative 
kicked off, we had experienced numerous successful 
prosecutions. In fact, this aggressive prosecution by the 
prosecutors brought an end to the violence by neighborhood-
based drug groups known as the ``Poison Clan'' and the ``Dogg 
Pound.'' Richmond's city manager along with the city council 
and its public safety committee were instrumental in helping to 
devise and support not only these police strategies, but also a 
number of initiatives across the spectrum of city government 
services.
    As was stated earlier, there was an aggressive marketing 
campaign, so word began to spread on the street about the 
impact of Project Exile. They were very aggressive in that 
marketing campaign and used numerous private funding sources to 
help spread the word.
    So has it worked? Our city residents think so. The daughter 
of an elderly woman who lives in one of our city's communities 
thanked us recently. She said she had witnessed her mother do 
something the other day that she had never seen her do before: 
walk by herself to a corner grocery. The woman's mother had 
never felt safe enough to walk a few blocks, and she does now.
    The attitude of Richmond's would-be criminals is changing, 
too. When a Richmond detective recently questioned a suspect 
about whether he was carrying a gun, the suspect was quick to 
reply: Carry a gun in Richmond? I don't think so. I don't want 
to go to jail for 5 years.
    And as noted also, our statistics speak for themselves. In 
1998, it is important to note that Richmond's overall homicide 
rate was the lowest since 1987. In fact, other violent crime 
categories decreased also. This year our homicide rate is 29 
percent lower than it was even in 1998. So compared to our 
record year of 1994, our homicide rate has dropped nearly 60 
percent.
    Our efforts through Project Exile, as I have stated, have 
garnered regional and national recognition, and, in fact, other 
law enforcement agencies now pursue similar avenues of 
prosecution. In addition, other cities throughout the Nation 
are exploring this effort.
    But most importantly, our efforts have gained the 
confidence of our community. The successes that Project Exile 
has enjoyed in Richmond have helped us to build confidence in 
the community and credibility in our police department. We view 
Project Exile as one of our greatest success stories during the 
past years. It has truly strengthened the partnerships the 
Richmond Police Department has forged with other agencies and 
with the community.
    As we stated, or as Mark Earley stated earlier, we now have 
Virginia Exile, and the laws closely mirror the sanctions and 
procedures found in the Federal Code, and they will also 
provide other Virginia localities with aggressive policing 
tools needed to combat crime violence in their communities. We 
continue to work closely with our State and local prosecutors 
in pursuing aggressive prosecution in State courts while 
building on our successful partnership with the U.S. attorney 
and other members of our Project Exile team.
    Thank you.
    [The prepared statement of Chief Gooch follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.078
    
    [GRAPHIC] [TIFF OMITTED] T6358.079
    
    [GRAPHIC] [TIFF OMITTED] T6358.080
    
    [GRAPHIC] [TIFF OMITTED] T6358.081
    
    Mr. Mica. I want to thank you for your testimony, and 
before we get to questions, we will hear from Professor Susan 
Long, the codirector of Transactional Records Access 
Clearinghouse with Syracuse University. Welcome, and you are 
recognized.
    Ms. Long. Thank you. Mr. Chairman and members of this 
subcommittee, thank you for the invitation to come today to 
testify about the results from our recent research study 
conducted by the Transactional Records Access Clearinghouse at 
Syracuse University on the enforcement of Federal weapons laws 
by the Bureau of Alcohol, Tobacco and Firearms.
    By way of background, the clearinghouse, commonly known as 
TRAC, is a data-gathering, data research and data distribution 
organization at Syracuse University. I, along with David 
Burnham, who is a research faculty member in the Newhouse 
School at Syracuse, serve as the center's codirectors. My 
specialty is statistics, data and measurement, and I am a 
faculty member in the Department of Quantitative Methods at 
Syracuse's School of Management.
    TRAC focuses its research efforts on Federal enforcement 
and regulatory activities. Since its founding in 1989, TRAC has 
sought to provide the American people with comprehensive 
information about the activities of Federal enforcement and 
regulatory agencies.
    TRAC's information is based on masses of detailed data that 
it obtains from Federal agencies through the systematic and 
informed use of the Freedom of Information Act. With the use of 
a variety of sophisticated statistical techniques, the raw 
information obtained from the agencies is checked and verified. 
Where possible, data from one agency is compared with another 
for general consistency. Detailed studies on specific agencies 
and topical areas are carried out. We also undertake special 
studies concerning the accuracy and reliability of data from 
various government data systems and publish our findings about 
apparent trustworthiness of official counts that an agency 
issues about its activities.
    As part of TRAC's series about each of the major Federal 
law enforcement agencies, TRAC's study on the ATF was published 
in August of this year. It updated an earlier TRAC study on the 
ATF that was done in 1996. The full study is available on 
TRAC's website. I refer anyone interested in more details to 
the full report.
    In the brief time I have here, I can only highlight five 
key findings.
    First, among all Federal agencies, ATF has long been the 
preeminent Federal law enforcement agency in the weapons area. 
It is the lead investigatory agency in most Federal firearms 
prosecutions, accounting for 82 percent of all referrals 
recorded by Federal prosecutors with weapons as a lead charge 
in 1992 and 75 percent in 1998.
    Second, the level of criminal enforcement activity of 
firearms laws by the ATF is down sharply. From a peak in fiscal 
year 1992, ATF matters sent to Federal prosecutors declined by 
44 percent, dropping from just under 10,000 in 1992 to a bit 
over 5,000 in 1998. A similar sharp decline is also shown when 
ATF referrals to State and local prosecutors, not just to the 
Feds, are included.
    Thus, this decline in ATF criminal enforcement of firearms 
laws does not represent a shift from Federal to State and local 
enforcement, but an overall decline in the magnitude of ATF 
enforcement activity at all levels. There is an accompanying 
graph and table that is in my prepared statement that I would 
like included in the record.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Ms. Long. ATF staffing levels are also down, although not 
as sharply. One factor contributing to the drop in ATF 
enforcement has been cutbacks in its staff. While the number of 
criminal investigators on the Federal payroll grew more than 20 
percent between 1992 and 1998, ATF staffing declined. The 
number of ATF special agents, who are the ones that take the 
primary lead in criminal investigations, dropped by 14 percent 
in the last 7 years, from just under 2,100 in 1992, to just 
under 1,800 in 1998.
    Fourth point. There is little evidence to suggest that the 
decline since the mid-1990's represents better targeting on 
more significant matters. When an agency's referrals go into a 
slump, administrators often assert that this is because its 
investigators are focusing on a smaller number of more 
significant matters. Targeting more serious criminals and 
crimes is a worthy objective; however, such conclusions are 
always hard to quantify.
    One possible useful indicator is to examine change in the 
prison time that results from an agency's investigations. Under 
Federal sentencing guidelines, higher prison times are 
generally assigned to what society judges as more serious 
crimes. In the case of the ATF, no clear trend toward more or 
less serious sentences has occurred. Initially as referrals 
fell from their peak in 1992, prison sentences did rise. This 
would be consistent with a better targeting argument. However 
in 1996, median sentences--half got more, half got less--peaked 
at 57 months. In the next year the median dropped to 48 months. 
In 1998, it went to 46 months. Further, the actual number of 
defendants sentenced to prison terms of 5 years or more, 
including life, peaked in 1993 and has fallen sharply since 
then, particularly since 1996.
    Fifth, and my last point, the study found wide regional 
variations in how the ATF enforces the law in different parts 
of the Nation. Median sentences resulting from an ATF 
investigation varied greatly around the country. Some of these 
variations appear to be grounded in the underlying enforcement 
challenges facing the agency. Arizona, for example, obviously 
has very different problems than Maine, but the rationale 
behind some contrasting results as the following are very hard 
to discern.
    In three districts, Illinois Central (Springfield), North 
Carolina East (Raleigh), and North Carolina Middle 
(Greensboro), the median 1998 sentences were over 100 months. 
By contrast, the median sentences--half more, half were less--
in Philadelphia East--excuse me, Pennsylvania East 
(Philadelphia), New York South (Manhattan), and Arizona 
(Phoenix) were all 36 months or less. Because the sentencing 
guidelines limit the sentencing discretion of judges, and very 
few Federal cases are decided by a jury, the sentencing 
variations are mostly the result of the kinds of cases the ATF 
agents and assistant U.S. attorneys select for prosecution in 
the different districts.
    ATF enforcement activities also vary in different parts of 
the country. In terms of the level of activity in relation to 
population, there were at least six times more ATF referrals 
for criminal prosecution in a number of more rural Federal 
judicial districts like Oklahoma North (Tulsa), Tennessee East 
(Knoxville), West Virginia South (Charleston), and North 
Carolina West (Asheville) than in major urban centers such as 
California North (San Francisco), California Central around Los 
Angeles, Illinois North (Chicago), and New Jersey centered in 
Newark.
    This concludes my prepared statement. I would like to have 
the full statement for the record because it does have a number 
of accompanying tables and one graph.
    If anyone would like further details concerning this study 
as mentioned earlier, it is available in its entirety on our 
website at TRAC.SYR.EDU under the icon for ATF. Thank you.
    Mr. Mica. Thank you. Thank you for your testimony and for 
providing us with this information and background for the 
subcommittee.
    [The prepared statement of Ms. Long follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.082
    
    [GRAPHIC] [TIFF OMITTED] T6358.083
    
    [GRAPHIC] [TIFF OMITTED] T6358.084
    
    [GRAPHIC] [TIFF OMITTED] T6358.085
    
    [GRAPHIC] [TIFF OMITTED] T6358.086
    
    [GRAPHIC] [TIFF OMITTED] T6358.087
    
    [GRAPHIC] [TIFF OMITTED] T6358.088
    
    [GRAPHIC] [TIFF OMITTED] T6358.089
    
    [GRAPHIC] [TIFF OMITTED] T6358.090
    
    [GRAPHIC] [TIFF OMITTED] T6358.091
    
    [GRAPHIC] [TIFF OMITTED] T6358.092
    
    [GRAPHIC] [TIFF OMITTED] T6358.093
    
    [GRAPHIC] [TIFF OMITTED] T6358.094
    
    [GRAPHIC] [TIFF OMITTED] T6358.095
    
    [GRAPHIC] [TIFF OMITTED] T6358.096
    
    [GRAPHIC] [TIFF OMITTED] T6358.097
    
    [GRAPHIC] [TIFF OMITTED] T6358.098
    
    Mr. Mica. Ms. Gooch, some critics of Project Exile have 
dismissed the program as assembly line prosecution and said 
that it takes away from other prosecutions of, say, drug crimes 
and other crimes and illegal activities. How would you respond?
    Chief Gooch. Project Exile is one of the most successful 
tools that we have used in recent years. I've been a Richmond 
police officer for well over 20 years, and I've seen the level 
and rate of violent crime rise. The benefit and the opportunity 
presented to us through the Project Exile initiative is 
actually quite simple in that it has allowed us through this 
partnership, this multiagency partnership, to expand the 
capacity of our police department, of our police officer on the 
street.
    We recognize the very real danger and impact of what used 
to be the high carry rate of guns by criminals on the street. 
Project Exile initially was an opportunity for our officers to 
use tools, legal tools available to them through the Federal 
system to have a marked impact, a direct and significant impact 
on the rate of violent crime.
    Mr. Mica. Ms. Long, how is your operation funded? TRAC, 
this program, does it receive Federal funding?
    Ms. Long. No, we do not receive any Federal funds. We are a 
self-supporting research center, obviously with support from 
Syracuse for facilities, and we are supported by research 
grants largely.
    Mr. Mica. Well, you appear to be one of the most thorough 
clearinghouses and sources of information about statistics on 
prosecution of gun laws and some of the other activities you 
have described. Have you had difficulty in obtaining 
information from the Federal Government or Federal agencies to 
compile your statistical information?
    Ms. Long. Yes, I could certainly say that is true.
    Mr. Mica. In what manner? Have you had to go to court to 
try to get some of that information?
    Ms. Long. Yes, we certainly have. And I have about 30 years 
of experience in using the Freedom of Information Act, trying 
to obtain records from many agencies. And we did have to file a 
lawsuit against the Justice Department, which resulted in a 
consent decree in this past summer. This sort of capped 10 
years of effort on the part of TRAC to obtain these records 
under several administrations.
    Mr. Mica. Thank you. We don't have too much time left. We 
have a vote pending. I will yield the balance of time to Mr. 
Barr.
    Mr. Barr. Thank you. And I appreciate, Ms. Gooch, you being 
here with two of your fellow officers, and I want to commend 
you and your police chief for the fine job that you have been 
doing. Again, as we talked about earlier, we hope that through 
this hearing today and your continued work and the continued 
work of the U.S. attorney, we will see this program and this 
approach, which is, you know, a basic approach that really 
works to simply coordinate better gun prosecutions used 
elsewhere in the country, and I think will benefit our citizens 
tremendously. So thank you very much.
    Chief Gooch. Thank you, sir.
    Mr. Barr. Ms. Long, thank you, I have read your work. I 
appreciate the fact that it will be a part of our record. I 
think it is very, very telling. It is unfortunate that you have 
to sue the Department of Justice to get information, but at 
least you did.
    It is somewhat disturbing, and I note that the chairman is 
concerned about this also, and hopefully we will inquire into 
it further in other proceedings, particularly your work and 
what it shows regarding a very significant drop-off in ATF 
prosecutions of gun crimes. Notwithstanding their rhetoric that 
this simply means that they are going after the bigger cases, 
that is not the case because it is not reflected in the 
sentencing, for example, as you have discovered, and it is also 
not a result of lack of funding.
    I would ask unanimous consent, Mr. Chairman, to have 
inserted into the record the funding figures that I used 
earlier regarding ATF, which shows, for example, that from 1995 
to the current fiscal year, there has been a 50 percent 
increase in ATF funding.
    Similarly, Mr. Chairman, there has been a virtually 
identical percentage increase in Justice Department funding of 
almost 50 percent during this period of time.
    Now, it may be that both ATF and Justice used that money 
for different purposes and don't, as in the case of ATF--
apparently put the money into more agents to prosecute more 
cases. But that's a policy decision that they have made. I 
don't think that there is any way, with a straight face at 
least, that they could argue it is a lack of resources. We have 
given them the resources in hundreds of millions of dollars. 
Now, if they choose not to use it to prosecute these gun cases, 
then I think we have a serious problem, but it is not a 
funding.
    Mr. Mica. Without objection, those documents and 
information will be made a part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.099
    
    [GRAPHIC] [TIFF OMITTED] T6358.100
    
    [GRAPHIC] [TIFF OMITTED] T6358.101
    
    [GRAPHIC] [TIFF OMITTED] T6358.102
    
    [GRAPHIC] [TIFF OMITTED] T6358.103
    
    [GRAPHIC] [TIFF OMITTED] T6358.104
    
    [GRAPHIC] [TIFF OMITTED] T6358.105
    
    [GRAPHIC] [TIFF OMITTED] T6358.106
    
    [GRAPHIC] [TIFF OMITTED] T6358.107
    
    [GRAPHIC] [TIFF OMITTED] T6358.108
    
    [GRAPHIC] [TIFF OMITTED] T6358.109
    
    [GRAPHIC] [TIFF OMITTED] T6358.110
    
    [GRAPHIC] [TIFF OMITTED] T6358.111
    
    [GRAPHIC] [TIFF OMITTED] T6358.112
    
    [GRAPHIC] [TIFF OMITTED] T6358.113
    
    [GRAPHIC] [TIFF OMITTED] T6358.114
    
    [GRAPHIC] [TIFF OMITTED] T6358.115
    
    [GRAPHIC] [TIFF OMITTED] T6358.116
    
    [GRAPHIC] [TIFF OMITTED] T6358.117
    
    [GRAPHIC] [TIFF OMITTED] T6358.118
    
    [GRAPHIC] [TIFF OMITTED] T6358.119
    
    [GRAPHIC] [TIFF OMITTED] T6358.120
    
    Mr. Barr. And I ask unanimous consent, Mr. Chairman, that a 
further chart entitled Length of Prison Sentences 1998, 
Districts and Rank Order be included as well as a packet of 
material, the front page of which is entitled BATF Firearms 
Prosecutions Referrals Drop be included in the record.
    Mr. Mica. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.121
    
    [GRAPHIC] [TIFF OMITTED] T6358.122
    
    [GRAPHIC] [TIFF OMITTED] T6358.123
    
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Mica. Well, I'd like to take this opportunity to thank 
both of you. I am going to leave the record open for 2 weeks 
for additional information and testimony. We may have 
additional questions for some of our witnesses here today.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6358.124
    
    [GRAPHIC] [TIFF OMITTED] T6358.125
    
    [GRAPHIC] [TIFF OMITTED] T6358.126
    
    [GRAPHIC] [TIFF OMITTED] T6358.127
    
    [GRAPHIC] [TIFF OMITTED] T6358.128
    
    [GRAPHIC] [TIFF OMITTED] T6358.129
    
    Mr. Mica. But I do want to thank Teresa Gooch, the deputy 
chief of police of Richmond, for being with us, for sharing 
with us your successful program and efforts of the community, 
State and Federal agencies to bring a difficult situation under 
control.
    Ms. Long, thank you for being with us and providing us 
background information from your studies. We may have 
additional questions for you. Unfortunately, we do have a vote 
being called at this time and just a few minutes remaining to 
go to the floor. But I think this has been a good hearing to 
review a program that couldn't be in a more timely fashion to 
address serious problems relating to gun violence in our 
streets and our communities. Hopefully, the hearing today will 
highlight the successes of Project Exile, and we can also prod 
our Federal agencies to do a little better job toward, again, 
looking at successful solutions to the problems we've seen 
again most recently.
    There being no further business to come before the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources, this meeting is adjourned.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6358.130
    
    [GRAPHIC] [TIFF OMITTED] T6358.131
    
    [GRAPHIC] [TIFF OMITTED] T6358.132
    
    [GRAPHIC] [TIFF OMITTED] T6358.133
    
    [GRAPHIC] [TIFF OMITTED] T6358.134
    
    [GRAPHIC] [TIFF OMITTED] T6358.135
    
    [GRAPHIC] [TIFF OMITTED] T6358.136
    
    [GRAPHIC] [TIFF OMITTED] T6358.137
    
    [GRAPHIC] [TIFF OMITTED] T6358.138
    
    [GRAPHIC] [TIFF OMITTED] T6358.139
    
    [GRAPHIC] [TIFF OMITTED] T6358.140
    
    [GRAPHIC] [TIFF OMITTED] T6358.141
    
    [GRAPHIC] [TIFF OMITTED] T6358.142
    
    [GRAPHIC] [TIFF OMITTED] T6358.143
    
    [GRAPHIC] [TIFF OMITTED] T6358.144
    
    [GRAPHIC] [TIFF OMITTED] T6358.145
    
    [GRAPHIC] [TIFF OMITTED] T6358.146
    
    [GRAPHIC] [TIFF OMITTED] T6358.147
    
    [GRAPHIC] [TIFF OMITTED] T6358.148
    
    [GRAPHIC] [TIFF OMITTED] T6358.149
    
    [GRAPHIC] [TIFF OMITTED] T6358.150
    
    [GRAPHIC] [TIFF OMITTED] T6358.151
    
    [GRAPHIC] [TIFF OMITTED] T6358.152
    
    [GRAPHIC] [TIFF OMITTED] T6358.153
    
    [GRAPHIC] [TIFF OMITTED] T6358.154
    
    [GRAPHIC] [TIFF OMITTED] T6358.155
    
    [GRAPHIC] [TIFF OMITTED] T6358.156
    
    [GRAPHIC] [TIFF OMITTED] T6358.157
    
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6358.158

[GRAPHIC] [TIFF OMITTED] T6358.159


</pre></body></html>
